<html>
<title> - IMPROVING CHILD NUTRITION PROGRAMS TO REDUCE CHILDHOOD OBESITY</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


 
                   IMPROVING CHILD NUTRITION PROGRAMS
                      TO REDUCE CHILDHOOD OBESITY

=======================================================================

                                HEARING

                               before the

                        SUBCOMMITTEE ON HEALTHY
                        FAMILIES AND COMMUNITIES

                              COMMITTEE ON
                          EDUCATION AND LABOR

                     U.S. House of Representatives

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

              HEARING HELD IN WASHINGTON, DC, MAY 14, 2009

                               __________

                           Serial No. 111-21

                               __________

      Printed for the use of the Committee on Education and Labor


                       Available on the Internet:
      http://www.gpoaccess.gov/congress/house/education/index.html


                  U.S. GOVERNMENT PRINTING OFFICE
49-498                    WASHINGTON : 2009
-----------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001

                    COMMITTEE ON EDUCATION AND LABOR

                  GEORGE MILLER, California, Chairman

Dale E. Kildee, Michigan, Vice       Howard P. ``Buck'' McKeon, 
    Chairman                             California,
Donald M. Payne, New Jersey            Senior Republican Member
Robert E. Andrews, New Jersey        Thomas E. Petri, Wisconsin
Robert C. ``Bobby'' Scott, Virginia  Peter Hoekstra, Michigan
Lynn C. Woolsey, California          Michael N. Castle, Delaware
Ruben Hinojosa, Texas                Mark E. Souder, Indiana
Carolyn McCarthy, New York           Vernon J. Ehlers, Michigan
John F. Tierney, Massachusetts       Judy Biggert, Illinois
Dennis J. Kucinich, Ohio             Todd Russell Platts, Pennsylvania
David Wu, Oregon                     Joe Wilson, South Carolina
Rush D. Holt, New Jersey             John Kline, Minnesota
Susan A. Davis, California           Cathy McMorris Rodgers, Washington
Raul M. Grijalva, Arizona            Tom Price, Georgia
Timothy H. Bishop, New York          Rob Bishop, Utah
Joe Sestak, Pennsylvania             Brett Guthrie, Kentucky
David Loebsack, Iowa                 Bill Cassidy, Louisiana
Mazie Hirono, Hawaii                 Tom McClintock, California
Jason Altmire, Pennsylvania          Duncan Hunter, California
Phil Hare, Illinois                  David P. Roe, Tennessee
Yvette D. Clarke, New York           Glenn Thompson, Pennsylvania
Joe Courtney, Connecticut
Carol Shea-Porter, New Hampshire
Marcia L. Fudge, Ohio
Jared Polis, Colorado
Paul Tonko, New York
Pedro R. Pierluisi, Puerto Rico
Gregorio Sablan, Northern Mariana 
    Islands
Dina Titus, Nevada
[Vacant]

                     Mark Zuckerman, Staff Director
                Sally Stroup, Republican Staff Director
                                 ------                                

            SUBCOMMITTEE ON HEALTHY FAMILIES AND COMMUNITIES

                 CAROLYN McCARTHY, New York, Chairwoman

Yvette D. Clarke, New York           Todd Russell Platts, Pennsylvania,
Robert C. ``Bobby'' Scott, Virginia    Ranking Minority Member
Carol Shea-Porter, New Hampshire     Howard P. ``Buck'' McKeon, 
Paul Tonko, New York                     California
Jared Polis, Colorado                Brett Guthrie, Kentucky
George Miller, California            David P. Roe, Tennessee
[Vacant]                             Glenn Thompson, Pennsylvania


                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on May 14, 2009.....................................     1

Statement of Members:
    McCarthy, Hon. Carolyn, Chairwoman, Subcommittee on Healthy 
      Families and Communities...................................     1
        Prepared statement of....................................     3
        Additional submissions:
            Letters from children regarding the Activity Works 
              program............................................    42
            Braley, Hon. Bruce L., a Representative in Congress 
              from the State of Iowa, prepared statement of......    71
                Additional submissions...........................    72
            Westley, Laurie A., senior vice president of public 
              policy, advocacy, and the research institute, Girl 
              Scouts of the USA, prepared statement of...........    69
    Platts, Hon. Todd Russell, Senior Republican Member, 
      Subcommittee on Healthy Families and Communities, prepared 
      statement of...............................................     4

Statement of Witnesses:
    Byrnes, Susan P., R.N., Susan P. Byrnes Health Educaton 
      Center.....................................................    34
        Prepared statement of....................................    36
    Castle, Hon. Michael N., a Representative in Congress from 
      the State of Delaware......................................     8
        Prepared statement of....................................    10
    Copperman, Nancy, MS, RD, CDN, director, public health 
      initiatives, North Shore-LIJ Health System.................    25
        Prepared statement of....................................    27
    Felton, Reginald M., director, federal legislation, National 
      School Boards Association..................................    29
        Prepared statement of....................................    31
    Paterson, Michelle Paige, first lady of the State of New York    13
        Prepared statement of....................................    15
    Ritchie, Lorrene, Ph.D., RD, director and adjunct professor, 
      Dr. Robert C. and Veronica Atkins Center for Weight and 
      Health, University of California...........................    36
        Prepared statement of....................................    38
    Stallings, Virginia, M.D., director of the nutrition center, 
      Children's Hospital of Philadelphia........................    20
        Prepared statement of....................................    22
    Woolsey, Hon. Lynn C., a Representative in Congress from the 
      State of California........................................     6
        Prepared statement of....................................     7


     IMPROVING CHILD NUTRITION PROGRAMS TO REDUCE CHILDHOOD OBESITY

                              ----------                              


                         Thursday, May 14, 2009

                     U.S. House of Representatives

            Subcommittee on Healthy Families and Communities

                    Committee on Education and Labor

                             Washington, DC

                              ----------                              

    The subcommittee met, pursuant to call, at 10:04 a.m., in 
room 2175, Rayburn House Office Building, Hon. Carolyn McCarthy 
[chairwoman of the subcommittee] presiding.
    Present: Representatives McCarthy, Tonko, Polis, Platts, 
and Roe.
    Staff present: Paulette Acevedo, Legislative Fellow, 
Education; Tylease Alli, Hearing Clerk; Alejandra Ceja, Senior 
Budget/Appropriations Analyst; Curtis Ellis, Legislative 
Fellow, Education; Denise Forte, Director of Education Policy; 
David Hartzler, Systems Administrator; Fred Jones, Staff 
Assistant, Education; Jessica Kahanek, Press Assistant; Joe 
Novotny, Chief Clerk; Kim Zarish-Becknell, Policy Advisor, 
Subcommittee on Healthy Families and Communities; Stephanie 
Arras, Minority Legislative Assistant; Cameron Coursen, 
Minority Assistant Communications Director; Kirsten Duncan, 
Minority Professional Staff Member; and Linda Stevens, Minority 
Chief Clerk/Assistant to the General Counsel.
    Chairwoman McCarthy [presiding]. A quorum is present. The 
hearing of the House Committee on Education and Labor, 
Subcommittee on Healthy Families and Communities, of 
``Improving Child Nutrition Programs to Reduce Childhood 
Obesity'' will come to order.
    Before we begin, I think I heard one of our young ladies 
talking about it. Make sure all cells and BlackBerrys are on 
vibrate or quiet. I appreciate that.
    I now recognize myself, followed by Ranking Member, Todd 
Platts from Pennsylvania, for an opening statement. I would 
like to welcome our witnesses to this hearing on how we can 
reduce childhood obesity through the Child Nutrition 
Reauthorization.
    As a nurse for over 30 years, I have seen firsthand the 
risks of illness that can result from obesity. In the last 
several months, I have read the studies that one in five 4-
year-olds are obese, that kids have the arteries of middle-age 
adults, and that the number of children who take medication for 
chronic diseases has jumped dramatically.
    In March, a study was released which indicated that 
proximity to fast food is a factor in student obesity. Some of 
these reports are shocking and, unfortunately, some are not. 
Childhood obesity, diabetes and heart disease are all on the 
rise in the United States, and one of the best tools that we 
have to combat these illnesses is our ability to provide 
wholesome and healthy nutrition to children in school.
    Childhood obesity is found in all 50 states, in both young 
children and adolescents, affecting all social and economical 
levels. Low-income communities tend to have the highest obesity 
rate due to factors such as lack of access to affordable 
healthy foods, lack of safe, available venues for physical 
activity, and a lack of education about nutrition and its 
benefits. Furthermore, it has been found that minority children 
are at the greatest risk for obesity.
    There is no silver bullet to solve childhood obesity. 
However, the school breakfast and lunch programs can make a 
great impact because they provide more than 50 percent of a 
student's food and nutrition intake on school days. The 
decisions we are making during reauthorization are very 
important to a great number of children, and that is why we 
have assembled such a knowledgeable panel.
    We were here today to explore how we can reduce obesity 
through the Child Nutrition Reauthorization. There is a wealth 
of information available on the issue of reducing obesity, and, 
in my mind, it comes down to two things: healthy eating and 
physical activity. These sound simple, but families all over 
the nation know it is far from simple.
    Given the current harsh financial realities, many families 
in my district and throughout the nation, schools have an 
increasingly important role to play in improving with 
nutritious food during their days at school. I also hear from 
folks in schools finding it more and more difficult to meet the 
increased demand of meals with healthy, nutritious and high 
quality foods without adequate funding.
    We also know how critical it is to reach the youngest 
children and infants as soon as possible. I hear from 
constituents all the time how important the WIC programs are to 
help families transition from poor eating habits to healthy 
habits.
    This is particularly important because WIC is working with 
the youngest of our children. As we will hear about today, the 
Institute of Medicine has undertaken a study to review and 
provide recommendations to update the nutrition and meal 
standards for school nutrition programs.
    School meal standards are critical, and I appreciate Dr. 
Stallings being here to discuss her work. Of course, children 
aren't just eating school meals when they are at school.
    Foods in vending machines and less healthy a la carte items 
in the cafeteria are readily available. And while in school, 
many children are subject to junk food advertisements. The 
students are a captive audience, and advertisers have proven to 
be remarkably effective at influencing their target customers.
    Representative Woolsey has done a lot of work in this area, 
and I am looking forward to her testimony regarding issues 
surrounding competitive foods.
    Finally, as I mentioned earlier, in addition to healthy 
foods, physical activity is the other critical element in 
reducing obesity. We know that change for adults is hard. But 
if we start to educate our children early enough, we can 
establish lifelong habits and the values of healthy living and 
wellness for the future.
    We also know that studies show children who are physically 
active learn better. We will hear testimony today about some 
terrific and innovative programs schools are using to address 
obesity.
    We have our work cut out for us, but by taking a 
comprehensive approach to nutrition, our children, families and 
communities will all be healthier. I want to thank all of you 
being here, and I look forward to your testimony.
    I now recognize the distinguished gentleman from 
Pennsylvania, Ranking Member Platts, for his opening statement.
    [The statement of Mrs. McCarthy follows:]

 Prepared Statement of Hon. Carolyn McCarthy, Chairwoman, Subcommittee 
                  on Healthy Families and Communities

    I'd like to welcome our witnesses to this hearing on how we can 
reduce childhood obesity through the child nutrition reauthorization.
    As a nurse for over 30 years, I have seen firsthand the risks and 
illnesses that can result from obesity.
    In the last several months, I have read the studies that one in 
five four-year-olds are obese, that kids have the arteries of middle 
aged adults, and that the number of children who take medication for 
chronic diseases has jumped dramatically.
    In March, a study was released which indicated that the proximity 
to fast food is a factor in student obesity.
    Some of these reports are shocking, and unfortunately, some are 
not.
    Childhood obesity, diabetes and heart disease are all on the rise 
in the US and one of the best tools we have to combat these illnesses 
is our ability to provide wholesome and healthy nutrition to children 
in school.
    Childhood obesity is found in all 50 States, in both young children 
and adolescents, affecting all social and economic levels.
    Low income communities tend to have the highest obesity rates due 
to factors such as a lack of access to affordable, healthy foods, lack 
of safe, available venues for physical activity, and a lack of 
education about nutrition and its benefits.
    Furthermore, it has been found that minority children are at the 
greatest risk for obesity.
    There is no silver bullet to solve childhood obesity.
    However, the School Breakfast and Lunch programs can make a great 
impact because they may provide more than 50 percent of a student's 
food and nutrient intake on school days.
    The decisions we make during reauthorization are very important to 
a great number of children, and that is why we have assembled such a 
knowledgeable panel.
    We are here today to explore how we can reduce obesity through the 
child nutrition reauthorization.
    There is a wealth of information available on the issue of reducing 
obesity and in my mind it comes down to two things: healthy eating and 
physical activity.
    These sound simple, but families all over the nation know it is far 
from simple.
    Given the current harsh financial realities for many families in my 
district and throughout the nation, schools have an increasingly 
important role to play in providing children with nutritious food 
during their days.
    I also hear from folks in schools finding it more and more 
difficult to meet the increased demand for meals with healthy, 
nutritious and high-quality foods, without adequate funding.
    We also know how critical it is to reach the youngest children and 
infants as soon as possible.
    I hear from constituents all the time how important the WIC 
programs are to help families transition from poor eating habits to 
healthy ones.
    This is particularly important because WIC is working with the 
youngest of children.
    As we will hear about today, the Institute of Medicine has 
undertaken a study to review and provide recommendations to update the 
nutrition and meal standards for school nutrition programs.
    School meal standards are critical and I appreciate Dr. Stallings 
being here to discuss her work.
    Of course, children aren't just eating school meals when they are 
at school.
    Foods in vending machines and less healthy a la carte items in the 
cafeteria are readily available.
    And while in school, many children are subjected to junk-food 
advertising.
    The students are a captive audience, and advertisers have proven to 
be remarkably effective at influencing their target customers. Rep. 
Woolsey has done a lot of work in this area and I am looking forward to 
her testimony regarding issues surrounding competitive foods.
    Finally, as I mentioned earlier, in addition to healthy food, 
physical activity is the other critical element in reducing obesity. We 
know that change for adults is hard, but if we start to educate our 
kids early enough, we can establish lifelong habits and the values of 
healthy living and wellness for the future.
    We also know that studies show children who are physically active 
learn better. We will hear testimony today about some terrific 
innovative programs schools are using to address obesity.
    We have our work cut out for us.
    But by taking a comprehensive approach to nutrition, our children, 
families and communities will all be healthier. Thank you all for being 
here and I look forward to your testimony.
                                 ______
                                 
    Mr. Platts. Thank you, Madam Chair.
    In the interest of time, with knowing we may have votes 
soon and with two of our colleagues waiting, you well captured 
the importance of this hearing and the importance of this issue 
in the broad sense. So I will submit my statement for the 
record and look forward to the testimony of our colleagues.
    [The statement of Mr. Platts follows:]

    Prepared Statement of Hon. Todd Russell Platts, Ranking Member, 
            Subcommittee on Healthy Families and Communities

    Good morning. Welcome to our hearing. Today we are here to discuss 
childhood obesity and child nutrition programs.
    Over the last ten years, obesity in the United States has been 
increasing at a staggering rate. The most recent data from the Centers 
for Disease Control and Prevention states that more than 72 million 
adults, or over one-third of the United States adult population, are 
obese. In addition, 17 percent of children ages 2-19 are considered 
overweight. Overweight children are more likely to become overweight 
adults and have a greater risk of developing cardiovascular diseases, 
diabetes, and certain cancers. Because obese individuals are estimated 
to live 5-7 years less than their healthier counterparts, it is assumed 
that our current generation of children will actually have a lower life 
expectancy than their parents.
    A number of initiatives have been created to combat this obesity 
epidemic. The food industry and trade organizations have joined 
together to phase-in healthier products and smaller portion sizes. 
Other groups have been promoting increased physical activity for 
children and adults alike.
    The 2004 reauthorization of the Child Nutrition Act required school 
districts to implement local wellness policies in all schools. The 
objective of the local wellness plan is to change students' eating 
habits while simultaneously encouraging increased activity. To meet 
this goal, the plan must include nutrition guidelines, nutrition 
education, physical activity goals, and school based wellness 
activities. Many schools have incorporated creative ways to meet their 
wellness plan goals. Today, we will hear from Ms. Susie Byrnes, founder 
of the Byrnes Health Education Center in my Congressional District. 
Many of the local schools bring students to the Byrnes Center to teach 
students about healthy eating practices as part of their local wellness 
plans.
    There are a variety of parties that are responsible for helping to 
address the issue of childhood obesity. At the federal level, we have a 
responsibility to ensure that foods provided by the school breakfast 
and lunch programs are nutritional and healthy. Local school districts 
also play a role as they make decisions about the activities that take 
place on their campus. I believe, however, that parents have the most 
important role--as the primary caretaker of their child's well-being--
to ensure that their children remain active and consume nutritious 
meals.
    I am pleased we are joined by such a distinguished panel of 
witnesses and am looking forward to hearing all of the testimony. As we 
move forward to reauthorize the Child Nutrition Act, we must keep the 
goal of reducing childhood obesity in mind while remaining conscious of 
the impacts of new mandates on our local school districts.
    Thank you Chairwoman McCarthy.
                                 ______
                                 
    Chairwoman McCarthy. Pursuant to Rule Committee 7C, any 
member may submit an opening statement in writing at this time, 
which will be made part of the permanent record. Without 
objection, all members will have 14 days to submit additional 
materials or questions for the hearing record.
    I would like to briefly introduce our very distinguished 
panel of witnesses here with us this morning. The complete bios 
of the witnesses will be inserted into the record.
    Today, we will hear from two panels. On our first panel, we 
will hear from two members of Congress, my colleagues and 
fellow members of the Committee in Education and Labor--the 
Honorable Lynn Woolsey from California, and the Honorable Mike 
Castle from Delaware.
    On the second panel, we will hear from six witnesses--First 
Lady Michele Paterson of my home state of New York; Dr. 
Virginia Stallings, an expert on child nutrition issues; Ms. 
Nancy Copperman, who runs an obesity prevention program on Long 
Island; Mr. Felton at the National School Boards Association to 
discuss nutrition and standards; Ms. Susie Byrnes, founder of 
the Susie P. Byrnes Health Educational Center; and Dr. Ritchie 
of Dr. Robert C. and Veronica Atkins Center for Weight and 
Health College on natural resources. I thank you all for being 
here.
    In the interest of time, given the large number of 
witnesses today, I will make my formal introductions short. 
First, I would like to introduce our first panel. The Honorable 
Lynn Woolsey from California and Mike Castle of Delaware have 
both been in Congress since 1993, and I have served with them 
on the Committee of Education and Labor since I came to 
Congress. Ms. Woolsey serves as the chairwoman of the 
Subcommittee on Public Works Protection.
    Mr. Platts. Thank you, Madam Chair, and Mr. Castle is the 
ranking member of the Education and Labor Subcommittee on 
Childhood, Elementary and Secondary Education. He has a 
distinguished public service career.
    Actually, Mike, I was learning for the first time all the 
offices you held, and delighted--deputy attorney general, state 
legislator, lieutenant governor and two-term former governor of 
the state of Delaware, and makes up the entire House delegation 
of the state of Delaware here in Congress. So we are delighted 
to have you and Lynn with us, and look forward to your 
testimony.
    Thank you, Madam Chair.
    Chairwoman McCarthy. Representative Woolsey and 
Representative Castle have each used their voices as members of 
Congress to call for action in areas where they are deeply 
passionate. They care deeply about the health and wellness of 
our youth, and I look forward to hearing their testimony on how 
to fight childhood obesity.
    Obviously, both of the members understand the light system 
and the 5-minute time limit, so let's get started. I thank you 
for taking the time out of what is an extremely busy day here 
in Congress to address this subcommittee.
    Ms. Woolsey?

 STATEMENT OF HON. LYNN WOOLSEY, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF CALIFORNIA

    Ms. Woolsey. Thank you, Madam Chairwoman and Congressman 
Platts, members of the committee. Thank you for the opportunity 
to testify before you today on today's hearing on childhood 
obesity.
    Our schools have a very powerful impact on the way our 
children eat and the lessons they learn about healthy living. 
With WIC and child nutrition programs set to be reauthorized 
this year, we have an opportunity to actually take bold steps 
to reverse these dangerous trends. I commend the subcommittee 
for holding this important hearing, and I commend you for your 
continued attention to the health and well-being of our 
nation's children.
    Children spend more than a third of their young lives at 
school, including before and after school, and oftentimes 
holidays as well. So it is important that schools provide 
healthy foods throughout the entire school day. Unfortunately, 
current nutrition standards for foods sold at school but 
outside of the school meal programs are inconsistent, and they 
are often unhealthy.
    For example, doughnuts are allowed in vending machines, but 
lollipops are not. Cookies are fine, but breath mints are 
banned. These standards don't make any sense. They haven't been 
updated since my children were in school in the 1970s.
    And today, my grandchildren, who are in school, are faced 
with the same junk food choices that should have been replaced 
years and years ago. No wonder, Madam Chairwoman, that child 
obesity is becoming an epidemic.
    Today, 23 million children and adolescents are obese or 
overweight. Obesity rates for children between 6 and 11 years 
old have more than quadrupled over the last 40 years. 
Throughout their lives, these children are at greater risk for 
heart disease, type II diabetes, stroke, cancer, and social and 
psychological problems.
    That is why I have re-introduced H.R. 1324, the Child 
Nutrition Promotion and School Lunch Protection Act, which will 
ensure that all foods sold in schools during the entire school 
day are based on current scientific and sound nutrition 
standards. In the Senate, Democrat senator Tom Harkins and 
Republic senator Lisa Murkowski have introduced the companion 
to this bipartisan bill in the House. And this bill has been 
endorsed by more than 80 organizations, including a wide range 
of school health and nutrition advocacy groups.
    While critics might expect that schools that switch to 
selling healthier foods might lose money, it turns out to be 
just the opposite. According to a study conducted by the U.S. 
Department of Agriculture and the Center for Disease Control, 
the majority of schools switching to healthier competitive 
foods in their vending machines and a la carte lines actually 
increased their revenues. The Center for Weight and Health at 
UC Berkeley in 2007 also found the 65 percent of schools that 
provided these better meals and better choices had total 
revenue increases of more than 5 percent after switching, and 
providing, then, schools with improved nutrition standards and 
also increased their revenues.
    H.R. 1324 would require that nutrition standards for foods 
sold in vending machines and a la carte lines meet standards 
for caloric intake, saturated fats, trans fats and refined 
sugars. The bill would depend on leading scientific experts to 
make recommendations and would study the relationship between 
certain foods and obesity.
    Additionally, while H.R. 1324 would set strong nationwide 
minimum standards, states could go above and beyond those 
standards. It is obviously long past time to bring these 
schools, Madam Chairwoman, into the 21st century. Unless 
Congress updates these standards, students will continue to 
spend money on unhealthy options that undermine their health 
and their future.
    So I look forward to working with the committee to get 
these changes signed into law. And again, Madam Chairwoman, 
thank you very much for having me today.
    [The statement of Ms. Woolsey follows:]

    Prepared Statement of Hon. Lynn C. Woolsey, a Representative in 
                 Congress From the State of California

    Chairwoman McCarthy, Congressman Platts, members of the Committee, 
thank you for the opportunity to testify at today's hearing on 
childhood obesity. Our schools can have a very powerful impact on the 
way our children eat and the lessons they learn about healthy living. 
With WIC and child nutrition programs set to be reauthorized this year, 
we have an opportunity to take bold steps to reverse these dangerous 
trends. I commend the Subcommittee for holding this important hearing 
and its continued attention to the health and well-being of our 
nation's children.
    Children spend more than a third of their young lives at school--
including before and after school and often times school holidays. So, 
it is important that schools provide healthy foods throughout the 
entire school day. Unfortunately, current nutrition standards for foods 
sold at school, but outside of the school meal programs, are 
inconsistent and often unhealthy. For example, doughnuts are allowed 
in, but lollipops are not. Cookies are fine, but breath mints are 
banned. These standards don't make any sense. They haven't been updated 
since my children were in school in the 70's. Today, my grandchildren 
are in school, with the same junk foods available that should have 
replaced years ago.
    No wonder the childhood obesity is becoming an epidemic. Today, 23 
million children and adolescents are obese or overweight. Obesity rates 
for children between 6 and 11 years old have more than quadrupled over 
the last 40 years. Throughout their lives, these children are at 
greater risk for heart disease, Type 2 Diabetes, stroke, cancer, and 
social and psychological problems.
    That's why I've reintroduced H.R. 1324, the Child Nutrition 
Promotion and School Lunch Protection Act, which will ensure that all 
foods sold in schools during the entire school day are based on 
current, scientific, and sound nutrition standards. In the Senate, 
Democrat Tom Harkin and Republican Lisa Murkowski have introduced the 
counterpart to my bipartisan bill, which has been endorsed by more than 
80 organizations, including a wide range of school, health, and 
nutrition advocacy groups.
    While critics might expect that schools that switch to selling 
healthier foods might lose money, it turns out to be just the opposite! 
According to a study conducted by the U.S. Department of Agriculture 
and the Center for Disease Control, the majority of schools switching 
to healthier competitive foods in their vending machines and a la carte 
lines actually increased revenues. The Center for Weight and Health at 
U.C. Berkely in 2007 also found that 65 percent of schools had total 
revenue increases of more than five percent after switching, proving 
that schools offering improved nutrition standards can increase their 
total revenues as well.
    H.R. 1324 would require that nutrition standards for foods sold in 
vending machines and a la carte lines meet standards for caloric 
intake, saturated fats, trans fats, and refined sugars. The bill would 
depend on leading scientific experts to make recommendations, and would 
study the relationship between certain foods and obesity. Additionally, 
while H.R. 1324 would set strong nationwide minimum standards, states 
could go above and beyond those standards. It's obviously long past 
time to bring these school food standards into the 21st Century.
    Unless Congress updates these standards, students will continue to 
spend money on unhealthy options that undermine their health and their 
futures. I look forward to working with this Committee to get these 
changes signed into law.
    Again, Madame Chair, thank you for having me.
                                 ______
                                 
    Chairwoman McCarthy. Thank you, Ms. Woolsey, for that 
information.
    Representative Castle?

  STATEMENT OF HON. MIKE CASTLE, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF DELAWARE

    Mr. Castle. Thank you, Madam Chairwoman. Thank you, Mr. 
Platts and other members of the committee. And I thank Lynn 
Woolsey. We have worked together on this issue almost since we 
have been in Congress, I think. And hopefully it is at least 
working to a degree, but I think we can improve it.
    As Lynn has very well pointed out, child nutrition programs 
are a vital significance to the future of the children in our 
country. We are all aware of the basic facts. Kids are not 
eating enough fruits and vegetables. They are not getting 
enough exercise. They are inside too much.
    There may be a lot of reasons for this, but the bottom line 
is there is an overweight issue among our children, and the CDC 
data shows that approximately 17 percent of children and 
adolescents are overweight. Our statistics in Delaware are even 
higher than that. And in just two decades, the number of 
overweight and obese young Americans has tripled.
    And one of the direct effects of this has been diseases and 
conditions associated with adults are now being associated with 
children. Type II diabetes, high cholesterol, high blood 
pressure, which did not used to happen, but happens on a 
regular basis at this time.
    It sort of reminds me. I was just sitting here thinking 
when Lynn was speaking of the ads you see on TV for people who 
have lost weight or whatever. I have never seen an ad for 
people who have gained weight saying what a wonderful thing 
this is. ``I feel so much better,'' or whatever it may be. I 
mean, the bottom line is that, just from a social point of view 
as well as a physical health point of view, and maybe mental 
health, we need to worry about this particular issue.
    The legislation, which we passed in the past in 
reauthorizing this, and this new legislation is of vital 
significance. In 2004, we did pass and the president signed the 
law, the Child Nutrition and WIC Reauthorization Act.
    In addition to other steps, the law put in place several 
comprehensive solutions to address the childhood obesity 
epidemic, nutritional education, which I think is of vital 
significance, increased physical activity, efforts to combat 
hunger and food insecurity. Included was a provision I authored 
to require school districts to establish local school wellness 
policies.
    I might point out, Madam Chairwoman, also kids often can 
educate adults, I have learned, in many of these areas, seat 
belts, for example, and in this area as well, which is not 
insignificant, either. Under the school wellness policies, the 
school districts are required to establish policies, include 
nutritional guidelines, nutrition education, physical activity 
goals and school-based wellness activities to encourage the 
development and implementation of programs to promote healthy 
eating and increased physical activity among children.
    School districts were tasked with developing these plans to 
accommodate a variety of demographics, economic situations and 
local food preferences. Policies were required to be developed 
and implemented for 2006-2007 school year by school districts. 
School districts developed these plans in an attempt to 
accommodate a variety of different backgrounds. And resulting 
from these policies, we have nutrition programs offering 
healthier options, increased visibility of school nutrition 
programs, changes in behaviors, and more healthy choices being 
made by students.
    So one emphasis I would like to make, and I don't know if 
we are addressing it in legislation, or if some of the speakers 
to follow us will address it, but I use the word ``options,'' 
healthier options. I still go to schools--well, a couple years 
ago, I went to a school that had all the options. They were 
serving, broccoli, whatever.
    But one of the options was pizza. And I asked the people in 
the cafeteria about that, and they said, ``Well, most of the 
kids are taking the pizza.'' It might not be pizza. It may be 
doughnuts for breakfast or whatever it may be, but the options 
need to be carefully crafted as well.
    You can't just offer them and say, ``We have 
accommodated.'' You need to make sure that is what the kids are 
eating. And I think we need to pay a little more attention to 
what some of the options are.
    In Delaware, each of our wellness plans is reflective of 
the district's policies and views of how to best provide and 
maintain a healthy and safe learning environment. And all that, 
of course, is well and good, and they are doing that. And I 
have seen it, and they are working to promote the integration 
of nutrition education into all curriculum areas in K through 
12.
    I think that is important, too, that people understand why 
these decisions are being made. Limiting portion sizes of 
snacks and beverages served in school, which is important, and 
limiting food being used as rewards, which can be difficult for 
teachers and parents sometimes, but is also important.
    In certain of our districts, for example in Laurel Middle 
School, music is played after lunch to encourage physical 
activity. And at the Austin D. Baltz elementary school in 
Wilmington area, Red Clay School District, hip-hop pageant 
program is put on to encourage physical activity. Many schools 
are implementing successful policies, but there are challenges.
    Strong school leadership is needed. When you find 
superintendents and principals and teachers who enforce it, it 
makes a difference. We need a commitment to enhancing school 
nutrition and wellness policies as implementation continues, 
and we need the support and knowledge of communities and 
families, which is essential to ensure wellness plans extend 
beyond the school days.
    We are fortunate to have the Nemours operation in Delaware 
working in this area to promote healthy lifestyles in all 
places that children live, learn, and play. Unfortunately, 
Nemours, by the will of Mr. duPont, is only in Florida and 
Delaware, but they make a vast difference in terms of these 
programs.
    As we move forward with reauthorization of child nutrition 
legislation, we must work at the federal, state and local 
levels to address this important issue and complex issue. We 
have to strengthen local wellness policy and legislative 
language to ensure all schools and students benefit from plans.
    We have to target those with greatest risk. We need to 
support programs under current law that promote nutrition 
education and physical activity, and we need to meet the 
financial commitment to see programs through from start to 
finish.
    I appreciate the opportunity of being here, and I look 
forward to what this committee will be doing.
    I yield back.
    [The statement of Mr. Castle follows:]

   Prepared Statement of Hon. Michael N. Castle, a Representative in 
                  Congress From the State of Delaware

    Good morning. Thank you Chairwoman McCarthy for holding today's 
hearing. As a Member of the Education and Labor Committee and co-chair 
of the Congressional Diabetes Caucus, I welcome the opportunity to 
testify before the Healthy Families and Communities Subcommittee.
    As debate begins in Congress on how best to reform a crumbling 
health care system to care for the uninsured and help manage the 
growing number of people who are living with chronic diseases, we are 
more aware than ever of the need to foster a national culture that 
believes in the need for health and wellness. In the context of today's 
hearing, nutrition and health are both essential for fostering a 
child's academic success.
    We know that kids are not eating enough fruits and vegetables, 
spend too much time in front of the TV or computer screen, are not up 
and moving enough, and consume too many sugary beverages. Childhood 
obesity has become a major health problem in the United States. In 
fact, recent data from the Centers for Disease Control (CDC) shows that 
an estimated 17 percent of children and adolescents ages 2-19 years are 
overweight. In my home state of Delaware, approximately 36 percent of 
kids and youth are overweight or are at risk of becoming overweight. I 
believe this is a matter of great concern to us as Members of Congress, 
to this Committee, and to society in general.
    According to a report by the National Institute for Health Care 
Management (2007), in just two decades, the number of overweight and 
obese young Americans has tripled, and studies suggest that overweight 
children are significantly more likely to become overweight or obese 
adults. As a result, children are increasingly suffering from 
conditions traditionally associated with adulthood, including Type 2 
diabetes, high cholesterol, and high blood pressure.
    Parents bear primary responsibility for ensuring that their 
children eat well and exercise regularly. Schools, however, can and 
should also play a positive role by giving children access to 
nutritious meals and snacks, nutrition education, and time to engage in 
daily physical activity.
    In 2004, Congress passed, and the President signed into law, the 
Child Nutrition and Women, Infants, and Children (WIC) Reauthorization 
Act. The Law put in place several comprehensive solutions that 
incorporate healthy habits, nutritional education, and increased 
physical activity with ongoing efforts to combat hunger and food 
insecurity to address the childhood obesity epidemic.
    In addition to making certain students have access to fresh fruits 
and vegetables, and milk; strengthening partnerships between local 
farms, school gardens, and child nutrition programs; and ensuring food 
safety by maintaining and strengthening quality and safety standards, 
the Law included a provision I authored requiring school districts 
participating in the program to develop and implement a comprehensive 
wellness policy in their schools. Specifically, school wellness 
policies include nutrition guidelines, nutrition education, physical 
activity goals, and school-based wellness activities developed by 
school districts in an effort to accommodate a variety of demographics, 
economic situations, and local food preferences. The objectives of 
these plans are to change students' eating habits while simultaneously 
encouraging increased activity.
    The majority of school districts passed these policies between May 
and July 2006 to have them in place for the 2006-2007 school year, as 
required by the Law. As a result, the vast majority of districts 
established guidelines for food and beverages available in a la carte 
and vending machines. And about 95% of districts established goals for 
nutrition education and physical education (USDA, FNS).
    Studies have shown that as a result of implementing these policies, 
school nutrition programs are offering more healthy food options, there 
has been an increased visibility of school nutrition programs to 
students and adults, and there have been changes in healthy choices and 
behaviors of students (School Nutrition Association and School 
Nutrition Foundation).
    In Delaware, each school district's wellness plan is reflective of 
the district's policies and views of how to best provide and maintain a 
healthy and safe learning environment for students within the 
district's care. Overall, however, each wellness policy in the state of 
Delaware works to promote the integration of nutrition education into 
all curriculum areas for students in grades k-12, limit portion sizes 
of snacks and beverages served anywhere on school property during the 
school day, limit food being used as rewards, and disseminate 
consistent nutrition messages throughout district schools, classrooms, 
cafeterias, and Delaware homes and communities.
    In Delaware's Laurel School District at the Laurel Middle School, 
more physical activity has been incorporated into the school's 
curriculum. After lunch most days, music is played to allow for 
students to do some large muscle activity. Additionally, in Delaware's 
Red Clay Consolidated School District at the Austin D. Baltz Elementary 
School all students have recess after lunch and the school implemented 
the ``Hip Hop Pageant Program'' to encourage cardiovascular activity in 
which students attend a hip hop class leading up to a hip hop pageant.
    While many schools are implementing successful policies, there are 
several challenges to implementing these plans as well. Schools need 
strong leadership and a commitment to enhancing their nutrition and 
wellness policies as implementation continues. The support of 
communities and families is also essential to ensure that the work of 
the wellness plans extend beyond the school day. In Delaware, great 
work is being done by Nemours Health and Prevention Services in this 
area to promote healthy lifestyles in all the places children live, 
learn, and play, including schools. Finally, I am hopeful this 
Committee will examine how we may strengthen the Law's language 
pertaining to local wellness policies to ensure all schools, and 
ultimately all students benefit from these plans.
    As Congress works to reauthorize child nutrition legislation this 
year to strengthen school nutrition programs, it is clear we must work 
with state and local school districts to further address the important 
and complex issue of childhood obesity by supporting programs under 
current law that promote nutrition education and physical activity at 
the state and local level; implementing programs with proven results in 
improving health outcomes; and targeting those children who are at the 
greatest risk.
    I hope that this Committee and Congress will continue to examine 
this issue very closely. I look forward to working along with my 
colleagues at the federal level, as well as the state and local level 
to do our part in the battle against childhood obesity.
    Thank you for allowing me to testify today.
                                 ______
                                 
    Chairwoman McCarthy. I thank my colleagues for their 
information and taking the time out on an extremely busy day to 
be here. I hope that when we get this legislation through, 
which I think we will, maybe we should start working on the 
members of Congress on the choices of food that we have here. 
Thank you very much.
    All right. The debate that has been up here, apparently we 
have been notified votes are starting. There are going to be 
several votes, which unfortunately is going to take an awful 
lot of time. But we believe that we should start. So if the 
witnesses could come and sit at the table, we will start with 
the introductions.
    I want to thank you all for being here, and I now yield to 
Representative Tonko of New York to introduce the First Lady of 
New York, Michele Paterson.
    Mr. Tonko. Thank you, Madam Chair.
    It is my pleasure to introduce our first guest at the 
second panel. It has been with distinction that our First Lady, 
Michele Paige Paterson, has served New York state in her 
current role as first lady since her husband, our governor, 
David Paterson, assumed office on March 5th of 2008, but she 
has a long history of work in healthcare and child obesity 
issues.
    Ms. Paterson has an M.S. in Health Services Management from 
the Milano Graduate School in New York City and a B.A. from 
Syracuse University. She has worked as the director of 
community and government affairs at North General Hospital in 
Harlem and as director of external affairs and corporate 
contributions for the Health Plan of New York, where she worked 
with community organizations, agencies and corporations on 
issues such as healthcare and education. She currently serves 
as director of integrative wellness at Emblem Health, where she 
works on healthy living and childhood obesity issues.
    In her capacity as our first lady, Ms. Paterson, as in her 
usual warm and compassionate style, worked with organizations 
and schools to help raise community awareness of childhood 
obesity and its consequences. She spearheaded a statewide 
initiative called Healthy Steps to Albany: First Lady's 
Challenge. The program challenges middle school students to 
lead healthy lifestyles through exercise and healthy eating 
habits. The program encourages students to increase their 
physical activity by competing in a 6-week fitness competition.
    Madam Chair, I join with you, with my colleagues on the 
committee and my fellow New Yorkers by welcoming our leader in 
our state, our first lady, Michele Paige Paterson, here today, 
and I thank her for accepting our invitation.
    Chairwoman McCarthy. Thank you.
    And welcome, Ms. Paterson.
    Our next witness is Dr. Stallings. Dr. Stallings is the 
director of the nutrition center at Children's Hospital of 
Philadelphia and professor of pediatrics at the University of 
Pennsylvania School of Medicine. Her research interests include 
pediatric nutrition, evaluation of dietary intake and energy 
expedition and nutrition and related chronic diseases. She 
joins us today to discuss her work as chair of the National 
Academy of Sciences Institute of Medicine's Committee on 
Nutrition Standards for Foods In Schools.
    Our next witness is Ms. Nancy Copperman, director of public 
health initiatives for the North Shore Long Island Jewish 
Hospital Healthcare System from my area of Long Island. She 
will discuss her work in an innovative program in my district 
called Activity Works.
    Activity Works is a school-based program which delivers 
physical activity right in the classroom. Five school districts 
within my district are using this program, and from the 
feedback I have gotten from the children, they love it.
    Our next witness is Mr. Felton of the National School 
Boards Association. He will discuss what locals are doing to 
promote nutrition and also his thoughts on national nutrition 
standards.
    I yield to Ranking Member Platts for the--I am sorry, Ms. 
Platts isn't in the building, so we will skip over and--I am 
sorry?
    I am sorry, Ms. Byrnes is in the building, and she will be 
up in a minute.
    Our final witness is Dr. Lorraine Ritchie, Director of Dr. 
Robert C. and Veronica Atkins Center for Weight and Health 
College of Natural Resources. She has worked for nearly a 
decade to promote the development of science-based solutions to 
the obesity epidemic in children and families. She will discuss 
her impressions of the WIC program and its role in reducing 
childhood obesity.
    I want to welcome all of our witnesses. And when Ms. Byrnes 
comes, we will stop and have her be introduced.
    I know that you all have been told about the--for those 
that have not testified before Congress, let me explain our 
lighting system. Everybody will get five minutes, including the 
members. It is limited to 5 minutes of presentations and 
questions.
    The green light is illuminated when you begin to speak. 
When you see the yellow light, it means you have 1 minute 
remaining. When you see the red light, it means your time is 
expired and you need to conclude your testimony. Please be 
certain, as you testify, to turn on your--and speak into the 
microphones in front of you.
    We will now hear from our first witness.
    Ms. Paterson?

 STATEMENT OF MICHELE PATERSON, FIRST LADY OF THE STATE OF NEW 
                              YORK

    Ms. Paterson. Good morning.
    Chairwoman McCarthy. Morning.
    Ms. Paterson. And thank you, Congressman Tonko, for that 
warm welcome. I would like to also thank Subcommittee 
Chairwoman Carolyn McCarthy and Representative Yvette Clarke 
and Paul Tonko from the great state of New York and the other 
members of the subcommittee for inviting me here today to 
present New York's efforts in fighting childhood obesity.
    As first lady and in my professional career, I continue to 
be committed to promoting programs that protect and support the 
health of New York's children. Governor Paterson and I believe 
that all of us share a common obligation to ensure that our 
children have the opportunity to live healthy lives and are 
given the promise of a healthier future.
    But to have that healthier future, we need to address what 
is perhaps the biggest challenge to the health and well-being 
of our youth today: the obesity epidemic, which not only 
adversely affects children's health, but it threatens to 
shorten their life span.
    As all of you know, the obesity epidemic touches all ages, 
all neighborhoods, and all socioeconomic groups in New York 
state. One in four children is overweight or obese, and in low-
income neighborhoods and neighborhoods of color, that number is 
as high as one in three.
    Even though New York state has a strong requirement for 
physical education in our schools, the recommended 60 minutes 
of daily physical activity is not enough to ensure good health 
for our youth. The governor has proposed state legislation and 
programs to improve the nutrition of foods available in 
schools, reduce the availability of junk foods, and increase 
the opportunity for physical activity.
    He proposed again this year the Healthy Schools Act, which 
would require the establishment of nutrition standards for all 
food, school's lunch, school's breakfast and outside food sold 
or served in schools. The governor also proposed and signed 
into law this year the Healthy Food, Healthy Communities 
Initiative which offers a new revolving loan fund to increase 
the number of healthy food markets in underserved communities.
    Additionally, our administration is working with schools, 
communities and farmers to develop and expand the farm-to-
school program to promote the use of local fruits and 
vegetables in schools and to support edible school gardens. The 
governor's office collaborated with a wide group of partners 
and stakeholders in New York, including the YMCA and the Boy's 
and Girl's Clubs, to set model standards for nutrition, 
physical activity and television and video game limits in 
after-school programs.
    And we have worked with our healthcare providers and more 
than 400 child daycare centers to provide nutrition training, 
education and guidance to staff and parents.
    For my part, I created a program called Healthy Steps To 
Albany: First Lady's Challenge. This challenges teams of middle 
school students, grades six through eight, are challenged to 
walk 4 million steps over a 6-week period. Everyday activities, 
such as biking to school, taking a dance or karate class after 
school, or going for a family walk after dinner were compiled 
to help the classes get their steps to Albany.
    The Healthy Steps to Albany program is unique because 
students are asked to think about the many ways they can 
increase their daily physical activities. With the support of 
their teachers and friends, students are encouraged to turn off 
the TV, put down the video game controller, and be physically 
active.
    I chose to focus on middle school students for a number of 
reasons. It is at this age that many students are uncomfortable 
with their changing bodies because they are going through 
puberty. And studies show that children's physical activities 
levels decline significantly during middle school years.
    Today's youth spend an average of 32 hours per week in 
front of a TV, video game or computer screen. This greatly 
exceeds the recommended limit of 1 to 2 hours maximum per day.
    Although I started Healthy Steps To Albany in Harlem before 
I became first lady, this spring we expanded the challenge to 
five large cities upstate New York, in Buffalo, Rochester, 
Syracuse, Albany and Yonkers. Nearly 270 classes registered, 
and the students walked more than 1.4 billion steps while 
mapping their progress across New York state. In addition, 
students had the opportunity to earn steps by making smart food 
choices.
    All the students benefited, because the 13 classroom teams 
that walked the farthest earned a number of prizes, including a 
visit to a local organic farm where they learned how food is 
grown and prepared. Tomorrow, the governor and I will be in 
Buffalo to share a healthy lunch and present awards to the 
Buffalo and Rochester winners.
    When I took the students from Harlem to a farm last year, I 
realized how far our urban youth are from the sources of their 
food. One student told me she didn't realize that cheese came 
from cows. She just thought it came from the grocery store. 
Another student never made the connection between potatoes and 
potato chips.
    If students do not understand the origins of the food they 
eat every day, they cannot understand what they are putting 
into their bodies. Students learn not only in the classroom, 
but also in the cafeteria, the halls, the gym, the schoolyard 
and their neighborhoods. They learn from teachers, parents, 
classmates and neighbors.
    They learn what they see. And too often, in too many 
schools, students see high calorie, low nutrient foods and 
beverages.
    Today, more than 1,000 schools in New York have already 
implemented comprehensive wellness policies, enhanced nutrition 
standards and increased the time of physical activity. I 
believe we can do better. We need federal legislation that 
raises the nutrition standards of all foods and beverages 
available in our school.
    Many of these standards can be addressed in the 2009 Child 
Nutrition Act Reauthorization. We strongly support your efforts 
to request that the USDA strengthen by regulation the nutrition 
standards governing the federal national school lunch and 
school breakfast programs, as well as to impose stricter 
federal standards on competitive foods sold or served in 
schools.
    As you do so, be cognizant of how schools got into selling 
outside food in the first place. They have to compensate for 
the deficits caused by insufficient federal funding for the 
school lunch and breakfast programs.
    As you advocate for improving standards for school's food, 
I ask you to also examine the cost to states to supply 
healthier foods. I am confident you will find that school food 
programs are severely underfunded.
    Improved federal nutrition standards and reimbursement for 
school lunch, school breakfast and competitive foods, combined 
with programs to increase physical activity, will help children 
and adolescents establish healthy behaviors. In turn, students 
will be healthier, will have lower obesity rates, obesity-
related diseases, and they will have lower healthcare costs. It 
can also contribute to increased capacity to learn, higher 
academic achievement, and greater success in school and their 
careers.
    We look forward to working with you on these important 
goals as the Child Nutrition Act Reauthorization moves forward, 
and I thank you for your time and attention.
    [The statement of Ms. Paterson follows:]

Prepared Statement of Michelle Paige Paterson, First Lady of the State 
                              of New York

    Good Morning.
    I would like to thank Subcommittee Chairwoman Carolyn McCarthy, 
Representatives Yvette Clarke, and Paul Tonko from the great State of 
New York, and the other members of the Subcommittee for inviting me to 
present New York efforts in fighting childhood obesity.
    I would like to congratulate the Subcommittee for convening this 
hearing on the Child Nutrition Act reauthorization to address the 
childhood obesity epidemic and to discuss initiatives that can and 
should be taken at the local, state and federal levels.
    As First Lady and in my professional career, I continue to be 
committed to promoting programs that protect and support the health of 
New York's children.
    Governor Paterson and I believe that all of us share a common 
obligation to ensure that our children have the opportunity to live 
healthy lives and are given the promise of a healthier future.
    But to have that healthier future, we need to address what is 
perhaps the biggest challenge to the health and well-being of our youth 
today--the obesity epidemic--which not only adversely affects 
children's health, but it threatens to shorten their lifespan.
    As all of us know, the obesity epidemic touches all age groups, all 
neighborhoods and all socio-economic groups. The State Department of 
Health estimates that one in four New Yorkers, including children, is 
obese. Among low-income populations and communities of color, the 
prevalence is even higher.
    In our own family, we practice what we preach--we exercise 
regularly and eat healthy foods, including fruits and vegetables from 
the organic garden at the Governor's mansion.
    Even though New York State has a strong requirement for physical 
education in its schools, the Centers for Disease Control and 
Prevention recommended 60 minutes of daily physical activity is not 
enough time to ensure good health for our youth.
    The Governor has proposed state legislation and programs to improve 
the nutrition of foods available in schools, reduce the availability of 
high calorie, low nutritional food (i.e. junk foods), and to increase 
the opportunities for physical activity.
    He proposed again this year the Healthy Schools Act, which would 
require the establishment of nutrition standards for all foods--school 
lunch, school breakfast and competitive foods sold or served in 
schools.
    The Governor also proposed the Healthy Food/Healthy Communities 
Initiative, which the legislature passed this year. It offers a new 
revolving loan fund to increase the number of healthy food markets in 
underserved communities.
    Additionally, the New York State Departments of Health and 
Agriculture & Markets have worked with schools, communities and farmers 
to develop and expand the Farm to School program. They worked to obtain 
procurement exemptions that would promote the use of local fruits and 
vegetables in schools, and to support edible school gardens.
    The Governor's office collaborated with a wide group of partners 
and stakeholders in New York, including the YMCAs of New York State and 
the New York State Alliance of Boys & Girls Clubs, to set model 
standards for nutrition, physical activity, and television and video 
game limits in after-school programs.
    With the support of the National Governors Association, we launched 
the Healthy Kids, Healthy New York After-School Initiative and 
Governor's Recognition Program, which continues to provide training 
toolkits and resources. In October, the Governor will recognize after-
school programs that have adopted and implemented these model 
guidelines.
    We've also work with more than 400 child day care centers 
throughout the State to provide training, education and guidance to 
child day care staff and parents. The goal is to provide supports for 
healthy eating and physical activity, and to reduce media use.
    Additionally, we collaborate with our healthcare providers by 
offering training, toolkits and guidance for the implementation of 
expert guidelines to ensure children are being screened for obesity 
using Body Mass Index (BMI) and that they and their families are being 
counseled about healthy eating and daily physical activity.
    The New York State Office of Health Insurance Programs has launched 
a 2-year Pediatric Obesity Performance Improvement Project in all 
Medicaid managed care plans in the State. It ensures guideline-
concordant care to screen for, prevent and manage child and adolescent 
obesity.
    While these successes are significant, working with one community, 
one school, or one childcare provider at a time is not going to end the 
obesity epidemic. We need federal policies, standards, regulations and 
commitments that help make the healthy option the easy choice for New 
Yorkers and all Americans.
    To better monitor the epidemic, target high-risk communities and 
identify successful community and/or school interventions, New York 
passed legislation that supports a partnership among the state health 
and education departments and the healthcare community. These groups 
have developed and implemented a non-duplicative surveillance system 
that is cost-efficient for BMI screening and determining weight status 
assessment of school-age youth. The data obtained will provide obesity 
rates at local, county and state levels by the end of this school year.
    For my part, to encourage physical activity among the youth in my 
home community of Harlem, I created a program called Healthy Steps to 
Alban: First Lady's Challenge. Teams of middle school students, grades 
six through eight, were challenged to walk 4 million steps over a 6-
week period. Small, everyday activities such as biking to school, 
taking a dance or karate class after school or going for a family walk 
after dinner were compiled to help the classes get their `Steps to 
Albany.'
    The Healthy Steps to Albany program is unique because students are 
asked to think about the many ways they can increase their daily 
physical activity. With the support of their teachers and friends, 
students are encouraged to turn-off the television, put down the video 
game controller, and be physically active.
    I chose to focus on middle school students for a number of reasons. 
It is at this age that many students are uncomfortable with their 
changing bodies, and studies show that children's physical activity 
declines significantly during middle school.
    Today's youth watch an average of 32 hours per week at a 
television, video game, or computer screen. This greatly exceeds the 
recommended limit of 1-2 hours maximum per day.
    Second, having a teenage son, I quickly realized that when he said 
he was going to play football with his friends, he wasn't always 
outside being physically active. He was often inside with a video game 
or watching television.
    Although I started Healthy Steps to Albany in Harlem before I 
became First Lady, this spring we expanded the challenge to five large 
cities in Upstate New York--Buffalo, Rochester, Syracuse, Albany and 
Yonkers. Nearly 270 classes registered, and the students walked more 
than 1.4 billion steps while mapping their progress across New York 
State. In addition, students had the opportunity to earn steps by 
making smart food choices.
    All the students benefited, but the 13 classroom teams that walked 
the farthest earned a number of prizes, including a visit to a local 
organic farm where they learned how food is grown and prepared.
    After meeting many of these young people and listening to their 
experiences, I can tell you this program is a success. Tomorrow, the 
Governor and I will be in Buffalo to share a healthy lunch and present 
awards to the Buffalo and Rochester winners.
    When I took the students from Harlem to a farm last year, I 
realized how far our urban youth are from the sources of their food. 
One student told me she didn't realize that cheese came from cows--she 
just thought it came from the grocery store. Another student never made 
the connection between potatoes and potato chips. If students do not 
understand the origins of the food they eat every day, they cannot 
understand what they are putting into their bodies.
    The good news is that we can get our young people, their teachers 
and parents excited about walking and being physically active, but we 
need to help them stay active and to ensure that the school 
environments and neighborhoods promote healthy behaviors.
    Students learn not only in the classroom but also in the cafeteria, 
the halls, the gym, the school yard and their neighborhoods. They learn 
from teachers, parents, classmates and neighbors. They learn what they 
see.
    And too often, in too many schools, students see high-calorie, low-
nutrient foods and beverages, which is often coupled with aggressive 
marketing and advertising.
    New York State has made a significant investment to improve the 
school nutrition environment, as well as after-school programs and 
child daycare settings. Healthcare providers and insurers continue to 
work with employers, agriculture organizations, farmers and community 
groups to help prevent childhood obesity.
    New York's state and local health departments, partners, parents 
and concerned citizens continue to work with schools to set nutrition 
standards and limit the sale of low-nutrient, high-calorie foods and 
beverages. More than 1,000 schools in New York have already implemented 
improved comprehensive wellness policies, enhanced nutrition standards 
for meals and snacks, and increased the time for physical activity.
    I believe we can do better. We need federal legislation that raises 
the nutrition standards of all food and beverages available in our 
schools. Many of these standards can be addressed in the 2009 Child 
Nutrition Act reauthorization.
    We strongly support your efforts to request that the USDA 
strengthen, by regulation, the nutrition standards governing the 
federal National School Lunch and School Breakfast Programs, as well as 
to impose stricter federal standards on competitive foods sold or 
served in schools.
    As you do so, be cognizant of how schools got into selling 
competitive foods in the first place: they had to compensate for the 
deficits caused by insufficient federal funding for the School Lunch 
and Breakfast programs. As you advocate for improving standards for 
school foods, I ask you to also examine the costs to states to supply 
healthier foods. I am confident you will find that school food programs 
are severely under-funded.
    And as US Secretary of Education, Arne Duncan, seeks to reform 
education in this country ``to provide a complete and competitive 
education to all children'' to improve student performance and make 
American students competitive in the world, he spoke about increasing 
the school year and lengthening the school day.
    Keep in mind that with a longer school day, a ``complete 
education'' needs to incorporate daily time for physical activity, 
including walking programs, like Healthy Steps to Albany and other 
types of lifetime activities.
    Also, remember that school breakfast is strongly linked to improved 
academic performance and higher test scores, reduced truancy and 
absenteeism. However, the breakfast must be high-quality and should 
demonstrate healthy food options to our children.
    Improved federal nutrition standards and reimbursement for school 
lunch, school breakfast, and competitive foods, combined with programs 
to increase physical activity, will help children and adolescents 
establish healthy behaviors. In turn, students will be healthier, have 
lower obesity rates and obesity-related diseases, and they will have 
lower health care costs. It also contributes to increased capacity to 
learn, higher academic achievement, and greater success in school.
    Moreover, we strongly support your work on the WIC [Women Infants 
and Children] program in the reauthorization. WIC provides nutritional 
information and support outside of our schools. Through the program a 
number of obesity prevention initiatives were implemented. They include 
breastfeeding support, Fit WIC physical activity training for parents, 
patient-centered nutrition education, low-fat milk promotion and the 
new WIC food package that includes vegetables and fruits, whole grains, 
and non-fat and low-fat milk. In New York, the WIC program reaches 
518,000 low-income women, infants, and children through a network of 
100 local agency contractors. These programs are part of a 
comprehensive approach that is needed to combat childhood obesity.
    We look forward to working with you on these important goals as the 
Child Nutrition Act reauthorization moves forward. I thank you for your 
time and attention.
New York State Recommendations to Improve School Meals
    Specific recommendations for improvements to school meals, 
consistent with the Dietary Guidelines for Americans issued jointly by 
the USDA and the Department of Health and Human Services:
    <bullet> Increase Whole Grains. At least half of the grain products 
served in school meals should be whole grains.
    <bullet> Increase Fruits and Vegetables. At a minimum, two servings 
of fruits or vegetables per breakfast and three servings of fruits or 
vegetables per lunch should be served. (Serving sizes will vary with 
children's' ages and grade levels). Schools should offer, at a minimum, 
five different fruits and five different non-fried vegetables over the 
course of a week to help ensure variety. Only one serving of fruits or 
vegetables per day should be juice.
    <bullet> Sodium. In order to help students stay within the 2,300 mg 
per day tolerable upper intake level for sodium recommended in the 
Dietary Guidelines, we urge the USDA to require that school lunches 
contain no more than 770 mg of sodium (one-third of the daily limit of 
sodium) and that school breakfasts contain no more than 575 mg of 
sodium (one-quarter of the daily limit for sodium).
    <bullet> Fats. The regulations related to the fat content of school 
meals should be updated to reflect the Dietary Guidelines. Total fat 
should contribute 20 to 35 percent of the total calories in school 
meals. Saturated fat plus trans fat combined should provide no more 
than 10 percent of total calories.
    <bullet> Calories. School meal programs are nutrition promotion 
programs and, as such, should model appropriate portion sizes, calorie 
levels, and healthy choices from the food groups. The calorie levels 
for ``moderately active'' children set forth in the Dietary Guidelines 
for Americans and Dietary Reference Intakes should apply to school 
meals to reflect the current activity levels of the majority of 
American children.
    <bullet> Added Sugars. By the beginning of the 2009-2010 school 
year, the USDA should establish a quantitative limit on added sugars 
for the school lunches and breakfasts.
    <bullet> Milk. All fluid milk served with school meals should be 
low-fat (1%-fat) or fat-free.
    <bullet> Commodities. Efforts to improve the nutritional quality of 
surplus government commodities offered to schools should continue, 
funding for the Department of Defense (DoD) Fresh Program which 
delivers fresh produce to schools should increase, and other programs 
that connect locally grown produce to schools should be supported.
New York State Efforts to Improve Nutrition and Physical Activity 
        Environments
    The New York State Department of Health addresses obesity 
prevention through physical activity and nutrition as part of its 
Prevention Agenda Toward a Healthier State. The purpose is to prevent 
health problems before they occur or before they worsen. The things we 
do, the food we eat, the air, water around us and the design of our 
communities contribute to the majority of deaths in New York and the 
nation. To accomplish this, policy, systems and environmental changes 
are pursued in collaboration with a wide range of organizations and 
community members across a variety of settings.
            Schools
    Multiple contractors of the state health department have worked 
with more than 1000 schools (of the over 7600 schools in state) to 
improve opportunities for physical activity and healthier food choices, 
including: development and implementation of comprehensive wellness 
policies; enhanced nutrition standards for meals and snacks; and edible 
school gardens and Farm-to-School programs. They have eliminated use of 
food as a reward or punishment and increased time for physical activity 
during, after and before the school day. Funded interventions in the 
school setting include Eat Well Play Hard, Healthy Heart Program, 
Overweight and Obesity Prevention Program, and Diabetes Prevention and 
Control Program.
            Child Day Care Centers
    Multiple contractors of the state health department have worked 
with nearly 500 child day care centers throughout the state to promote 
healthier eating, increased physical activity and reduced media use 
among children.
                                 ______
                                 
    Chairwoman McCarthy. Thank you, Ms. Paterson.
    We are going to have Mr. Platts introduce our witness. We 
understand you were caught in traffic, so don't worry about it, 
Ms. Byrnes.
    Mr. Platts. Thank you, Madam Chair.
    I am delighted to give introduction to our final panelist, 
Susie Byrnes, who is a great community leader in my hometown of 
York. Susie, welcome. And as those of you who saw her entrance 
and some of her props, the things she has brought with her, 
Susie brings an amazing level of energy to all she does.
    A registered nurse by training since 1988, she has devoted 
herself to really trying to prevent the premature deaths caused 
by unhealthy lifestyle choices by developing the concept of and 
then following through on the creation of the Susie Byrnes 
Health Education Center, which officially opened its doors in 
1995. After its first decade, the center continues to grow and 
reach its vision of becoming a leading resource of innovative, 
high-quality, effective health education.
    And I can tell you that I have had the pleasure of being at 
the center in my official capacity and to partner with the 
center in any way I can. But what was most informative, I have 
been there as a parent chaperoning my son's sixth grade class 
just recently for a wonderful program.
    And Susie, we are honored to have you here with us, and 
know that, when we get to your testimony, you will bring great 
insights as a leader in the area of health education centers, 
not just in York but across the country with the national 
associate. So thanks for being with us.
    Chairwoman McCarthy. And welcome.
    We have a vote going on, and we have to get over to the 
Capitol now to vote. We are going to have four or five votes, 
so, unfortunately, we are probably going to be at least 45 
minutes. So I think this is a good time for a break, for 
everybody to stretch their legs, get something healthy to drink 
and something healthy to eat, and we will be back.
    Thank you.
    [Recess.]
    Chairwoman McCarthy. We were just told that I am able to 
start, being that there is no one here to object.
    So, Dr. Stallings, please?

STATEMENT OF VIRGINIA A. STALLINGS, M.D., DIRECTOR, CHILDREN'S 
                   HOSPITAL NUTRITION CENTER

    Dr. Stallings. Madam Chair and Mr. Platts, members of the 
committee, my name is Virginia Stallings. And as you have 
heard, I serve as chair on the Committee of Nutrition Standards 
for National School Lunch and Breakfast Programs that are under 
progression of the Institute Of Medicine.
    We have produced a Phase I report on the topic that came 
out in late 2008. We are currently working on Phase II that 
will provide recommendations for revisions to the nutrition 
standards and the menu requirements for the program.
    I also served as chair of the committee that prepared the 
2007 report on ``Foods In Schools: Leading The Way Towards 
Healthier Youth,'' that reviewed the scientific evidence and 
provided nutrition standards for snacks and other foods and 
beverages provided outside of the federally reimbursable meals 
and snack programs. These were mentioned this morning by 
Representatives Woolsey and Castle.
    In 2008, at the request of the USDA, the IOM convened an 
expert committee to provide recommendations for updating the 
nutrition standards and meal requirements for the school lunch 
and breakfast programs. These are the nutrition and health 
foundations for these programs, and much has happened since the 
current standards were last updated in 1995.
    The school lunch program serves more than 30 million 
children each day, and the breakfast program serves about 10 
million. Thus, improvements to the programs offer tremendous 
potential to improve the dietary intake and the health of 
children. Together, the two school meal programs can make a 
great impact because they may provide as much as 50 percent of 
a student's food and nutrition intake on school days.
    Also, as you know, depending on household income, a child 
may receive meals at no cost, at reduced cost, or full price. 
The program, therefore, serves as a safety net for children in 
need.
    The school lunch program was established in 1946 as a 
measure of national security to safeguard the health and the 
well-being of the nation's children. Then, most of the 
nutrition concerns of the United States were centered on 
deficiencies.
    Although many of the overt deficiencies have now been 
eliminated, other nutrition-related concerns have emerged. And 
as the chair mentioned, the most notable is the high prevalence 
of childhood obesity.
    Revisions of the current program standards will enable the 
programs to incorporate current public health recommendations 
and the newer knowledge about nutritional needs of children and 
adolescents, and what we now know about the impact of nutrition 
on health both in childhood and throughout the lifetime.
    Among the specific reasons for revising the standards are 
substantial changes in the dietary guidelines for Americans, 
which by law the school meal programs are required to follow. 
We also have major changes in the nutrient intake 
recommendation.
    And again, as mentioned, this is on a background of the 
increased prevalence of obesity. There are short and long-term 
health consequences that will follow this epidemic of childhood 
obesity.
    The USDA subsidized the cost through cash reimbursements, 
and in 2007, this was near $10 billion. Also, though, the USDA 
provides about $1 billion in the commodity foods programs. 
Commodity foods available to schools have changed dramatically 
over the years, and now states can choose from a list of more 
than 180 agricultural commodities, including many more fruits 
and vegetables.
    In Phase I, the committee reviewed the task, formulated 
working principles, assessed the nutrient intake of 
schoolchildren, and described our planning model. The report 
was discussed in a public forum in January, and the committee 
expects to complete this report with full recommendations for 
new standards in this fall. I would like to mention the four 
criteria that have guided this work.
    The nutrition standards and meal requirements will be 
consistent with current dietary guidance and nutrition 
recommendations to promote health. The ultimate goal is to 
improve childrens' diets by reducing the prevalence of both 
inadequate and excess intake of foods, nutrients and calories.
    The nutrition standards and meal requirements will be 
developed based on age and grade groups that are consistent 
with the age and gender categories that are important to 
understanding child development and the recommendations. The 
recommendations will also support menus that offer nutritious 
foods and beverages that appeal to students. And lastly, the 
recommendations will be sensitive to cost.
    I will highlight several examples, very briefly, just to 
illustrate how complex this process is going to be. With the 
2004 Reauthorization Act of the Child Nutrition and WIC 
program, schools were required to follow the dietary 
guidelines, which means increase fruits, vegetables, whole 
grains and low-fat and fat-free dairy.
    However, in this setting, there were not specific enough 
requirements for schools to implement this. Currently, the USDA 
has two different programs that allow schools to plan meals, 
one based on food, one based on nutrients, and the number of 
servings and the requirements for servings of fruits and 
vegetables are not the same in both programs.
    The definition of whole grain products, which we now know 
are important to health, will be considered. In the 
marketplace, most foods that have whole grains represent 
mixtures. The term ``whole grain'' and the serving size for 
whole grain are not yet defined by the FDA.
    So schools are in an awkward position of being given 
recommendations but do not have definitions as to how to follow 
compliance. Recommendations along these lines will help both 
industry and the food service community.
    Dietary guidelines include recommendations for sodium, 
cholesterol, fiber, and trans fat. Again, not all of the 
current recommendations follow the science or the current 
dietary recommendation intakes.
    By law, the dietary guidelines must be reviewed every 5 
years. And in fact, this process has just begun, and there will 
be new guidelines in 2010. We need to have a way that these 
constant and important updates can be accommodated into ongoing 
changes in the regulations for school foods at lunch and 
breakfast.
    Incorporating the standards--I think I will skip that in 
the interest of time. Specifying the issue of age and grade 
groups is very important. Nutrition and energy needs differ by 
age, and as children grow older, both by gender and age. The 
current DRI age groups different from the USDA age groups, so, 
again, we need to harmonize these things.
    This is particularly true when you think about energy 
levels and calories as we think about issues of obesity. Energy 
needs differ by age, by physical activity, by body size. And 
when you think about kindergarten to 12th grade, you can 
appreciate how vast that range is. It may be appropriate to 
provide recommendations both for minimum and maximum energy 
levels in recognition of the concerns about both under-
nutrition and obesity in school age children.
    In conclusion, the National School Lunch Program and 
Breakfast Program have a long and impressive history of 
providing nutritious, low-cost meals to school age children. 
There have been major developments in diet and health guidance 
and scientific understanding since the last revisions were 
made. It is now time to develop new recommendations so that 
school meals and the programs that they represent can achieve 
greater benefit for our nation's children.
    With the recommendations for competitive and snack foods 
which came out last year, and the recommendations to revise the 
WIC food basket, which came out shortly before that, we have 
the unprecedented opportunity to use evidence-based and public 
health evidence to directly improve the dietary intake of 
children and positively impact child health.
    Thank you for the opportunity to testify.
    [The statement of Dr. Stallings follows:]

    Prepared Statement of Virginia Stallings, M.D., Director of the 
         Nutrition Center, Children's Hospital of Philadelphia

    Good morning, Madame Chair and members of the Committee. My name is 
Dr. Virginia Stallings. I am a pediatrician, Director of the Nutrition 
Center at the Children's Hospital of Philadelphia, and Professor of 
Pediatrics at the University of Pennsylvania, School of Medicine.
    I serve as chair of the Committee on Nutrition Standards for 
National School Lunch and Breakfast Programs of the Institute of 
Medicine which produced the report, Nutrition Standards and Meal 
Requirements for National School Lunch and Breakfast Programs: Phase I. 
Proposed Approach for Recommending Revisions in 2008. We are currently 
working on Phase II of the project that will provide recommendations 
for revision of the nutrition standards and Menu Requirements for the 
School Breakfast Program and the National School Lunch Program. I also 
served as chair of the committee that prepared the 2007 Institute of 
Medicine report on Foods in Schools: Leading the Way Toward Healthier 
Youth that recommended nutrition standards for foods offered in 
competition with federally reimbursable meals and snacks. Established 
in 1970 under the charter of the National Academy of Sciences, the 
Institute of Medicine provides independent, objective, evidence-based 
advice to policymakers, health professionals, the private sector, and 
the public.
    In 2008, at the request of the US Department of Agriculture (USDA), 
the Institute of Medicine convened an expert committee to provide 
recommendations for updating and revision of the nutrition standards 
and meal requriements for the school lunch and breakfast programs. 
Nutrition standards and meal requirements provide the nutrition and 
health foundation for the National School Lunch Program and the 
National School Breakfast Program, and much has happened since the 
current standards were last updated in 1995. The key question is: What 
changes are needed to make these programs consistent with the current 
understandings about diet and health as they relate to our nation's 
children?
    The National School Lunch Program serves more than 30 million 
children per day and the School Breakfast Program serves 10.1 million 
students daily (FY 2007). Thus, improvements to the programs offer 
tremendous potential to improve the dietary intake and health of 
children. Together, the two school meals programs can make a great 
impact because they may provide more than 50 percent of a student's 
food and nutrient intake on school days and about half of the food 
intake in a year. As you know, depending on household income, a child 
may receive program meals at no cost, reduced cost, or full (but 
partially subsidized) price. Thus, the programs serve as a safety net 
for children in need.
    When the National School Lunch Program was established in 1946 as a 
``measure of national security, to safeguard the health and well-being 
of the nation's children,'' nutritional concerns in the United States 
centered on nutrient deficiencies. Although many of the overt 
nutritional deficiencies in children's diets have largely been 
eliminated, other nutrition-related concerns have emerged, most notably 
a high prevalence of childhood obesity. Although program standards were 
updated in 1980 and 1995, additional updates are needed. Further 
revision of program standards will enable the programs to incorporate 
current public health recommendations and newer knowledge about the 
nutritional needs of children and adolescents and the impact on health 
in chldhood and throughout the lifetime. Among the specific reasons for 
revising the standards are substantial changes in the Dietary 
Guidelines for Americans (which, by law, the school meal programs are 
required to follow), major changes in nutrient reference values and 
ways to apply them, and the alarming increases in the prevalence of 
childhood obesity coupled with the short and long term health 
consequences that will likely follow childhood obesity.
    The nutrition standards and meal requirements provide the 
foundation for the school meals programs. If the meals offered meet the 
nutrition standards and meal requirements in USDA regulations, the USDA 
subsidizes the cost through cash reimbursements. In fiscal year 2007 
the value of the cash reimbursements were near $10 billion total for 
both programs. In that same year, USDA also provided commodity foods to 
the programs with a value of approximately $1 billion. Commodity foods 
available to schools have changed over the years, and states may now 
choose from a list of more than 180 agricultural commodities including 
more foods that are encouraged by Dietary Guidelines for Americans, 
such as fruits and vegetables.
    The committee's work has been divided into two phases. I am going 
to talk about the Phase I report issued in late 2008 that describes the 
committee's proposed criteria and approach to use in making 
recommendations for revisions to the nutrition standards and meal 
requirements of the school meal programs. The report is available 
electronically at no charge from the National Academies Press (http://
www.nap.edu/catalog.php?record--id=12512 or http://iom.edu/
schoolmeals).
    During Phase I, the committee identified and reviewed available 
data and information on the task, formulated working principles and 
criteria, and reviewed and assessed the food and nutrient intakes of 
schoolchildren. The committee then described its planning model and 
analytical methods for developing recommendations. The report was 
discussed during a public forum in January, the committee is now 
engaged in Phase II, and expects to complete this report with 
recommended revisions to the nutrition standards and meal requirements 
for School Breakfast and Lunch Programs in Fall 2009.
    The committee proposed four criteria to guide its work. The 
proposed criteria are:
    1. The nutrition standards and meal requirements will be consistent 
with current dietary guidance and nutrition recommendations to promote 
health--as exemplified by the Dietary Guidelines for Americans and the 
Dietary Reference Intakes from the Institute of Medicine--with the 
ultimate goal of improving children's diets by reducing the apparent 
prevalence of inadequate and excessive intakes of food, nutrients, and 
calories.
    2. The nutrition standards and meal requirements will be considered 
on the basis of age-grade groups that are consistent with the current 
age-gender categories used for specifying reference values and with 
widely used school grade configurations.
    3. The nutrition standards and meal requirements will result in the 
simplification of the menu planning and monitoring processes, and they 
will be compatible with the development of menus that are practical to 
prepare and serve and that offer nutritious foods and beverages that 
appeal to students.
    4. The nutrition standards and meal requirements will be sensitive 
to program costs.
    Through its discussion of specific topics that must be addressed in 
order to revise nutrition standards and meal requirements, the Phase I 
report explains why changes are needed. Perhaps most importantly, the 
standards and requirements must be updated to be consistent with the 
current Dietary Guidelines for Americans and the Dietary Reference 
Intakes. There is also need to identify practical approaches to making 
revisions, ,to address cost considerations, to continue providing a 
safety net to children who are at risk of insufficient food intake 
without contributing to excessive weight gain, to enable planning of 
meals that student will eat and enjoy, and to address other factors 
that affect feasibility of implementing the recommendations. I will 
highlight the application of Dietary Guidelines for Americans and the 
Dietary Reference Intakes to the school meals program, by way of 
illustration of the complexities and the necessity for revisions.
    Fruits, Vegetables Whole Grains, and Low-Fat or Fat-Free Milk 
Products. The Child Nutrition and WIC Reauthorization Act of 2004 
amended the National School Lunch Act to require increased consumption 
of foods that are recommended in the most recent Dietary Guidelines. 
These include fruits, vegetables, whole grains, and low-fat or fat-free 
milk products. Further, the increased consumption of such foods can be 
related to the decreased intake of other food groups (for example, 
meats and refined grains). Addressing these issues requires careful 
consideration of food-based and nutrient-based planning. Current 
standards for the two approaches differ with regard to number of 
servings and serving sizes of fruits and/or vegetables and fluid milk; 
and neither requires whole grains. While regulations specify that all 
schools must provide at least two types of milk, they do not restrict 
the types of milk offered by fat content.
    The definition of whole grain products will be considered. In the 
marketplace, most foods that contain whole grain represent mixtures. 
The term whole grain is not defined by Food and Drug Administration and 
that agency has not provided a definition of a whole grain product or a 
whole grain serving. To assess how well a school is meeting [potential] 
nutrition standards concerning the inclusion of whole grains in menus, 
the definition of whole grain in the school setting will need to be 
clear. This will help industry and the school food service team.
    Sodium, Cholesterol, Fiber, and Trans Fat. The Dietary Guidelines 
includes recommendations for sodium, cholesterol, and fiber and 
recommends limiting the intake of trans fat. Especially with regard to 
sodium, it may be challenging to obtain prepared foods that the 
children will find appetizing Further, not all the recommendations are 
identical to those in the DRIs. Again, up to date uniform 
recommendations will likely encourage industry to respond to the 
nutrition and health needs of school age children.
    Planning for Subsequent Revisions to Dietary Guidelines for 
Americans. By law, the Dietary Guidelines must be reviewed every five 
years. To date, changes have been made every five years. Especially 
because the next revision to Dietary Guidelines is expected in the year 
2010, it may be helpful if revisions for the school meal programs 
include a way to accommodate ongoing changes to the Dietary Guidelines 
in a timely way.
    Incorporating Current Dietary Reference Intakes and Related 
Planning Approaches for School Meals. The current nutrition standards 
for school meals reference the older 1989 Recommended Dietary 
Allowances. These have been replaced and expanded by the Institute of 
Medicine's new reference values known as the Dietary Reference Intakes 
(DRI) developed between 1994 and 2004. The standards for school meals 
have not yet changed in response. The planning task is complex and 
involves considerations related to program goals, nutritional aspects 
(such as the selection of target nutrient intake levels), and program 
implementation. The revisions to the nutrition standards and meal 
requirements for school meal programs must take these and related 
considerations into account.
    Specifying Age-Grade Groups. Nutrient and energy needs differ by 
age and, in older children, by gender. Currently, the regulations for 
school meal programs specify a number of age-grade groups (for example, 
kindergarten through grade three) and make no distinction by gender. 
DRI age groups differ somewhat from the ages covered by the USDA-
specified age-grade groups.
    Part of the committee's task is to propose serving sizes and 
numbers of servings of the required types of foods of the nutrition 
standards by age-grade group. These amounts would be used in menu 
planning and in the evaluation of menus.
    Recommending Energy Levels. Energy needs differ by age and by 
physical activity and body size (which vary greatly, especially in 
grades 7 through 12). Recommendations for energy will need to consider 
the great diversity of needs of the ages of the children being served. 
It may be appropriate to provide recommendations for both minimum and 
maximum energy levels.
    Specifying Nutrients to Be Covered by the Nutrition Standards. 
Currently, regulations specify quantitative requirements for energy, 
protein, calcium, iron, vitamin A, vitamin C, total fat, and saturated 
fat. In addition, the nutrition standards encourage program operators 
to reduce sodium and cholesterol levels and to increase fiber levels in 
menus with no further specification given. The DRIs include targets for 
all these nutrients plus many more, and the 2005 Dietary Guidelines 
identified several nutrients of concern for children. These 
developments indicate a need to reassess the list of nutrients that are 
covered in the nutrition standards.
    In conclusion, the National School Lunch Program and School 
Breakfast Program have a long and impressive history of providing 
nutritious low-cost meals to school-age children. There have been major 
developments in diet and health guidance and nutrient reference 
standards and their application to programs since the last major 
revisions to the nutrition standards and meal requirements. It is now 
time to develop recommendations for further revisions to the nutrition 
standards and meal requirements of the school meal programs so that the 
program can achieve greater benefits for our nation's children. Thank 
you for the opportunity to testify. I would be happy to address your 
questions.
                                 ______
                                 
    Chairwoman McCarthy. Thank you, Dr. Stallings.
    Ms. Copperman?

     STATEMENT OF NANCY COPPERMAN, DIRECTOR, PUBLIC HEALTH 
INITIATIVES OFFICE OF COMMUNITY HEALTH, NORTH SHORE LONG ISLAND 
                      JEWISH HEALTH SYSTEM

    Ms. Copperman. Chairwoman McCarthy and members of the 
Subcommittee on Healthy Families and Communities, I am Nancy 
Copperman, director of public health initiatives of the North 
Shore LIJ Health System, the 10th largest not-for-profit health 
system in the nation that serves the 5.4 million residents in 
the New York metropolitan area. Thank you very much for giving 
me the opportunity to discuss the importance of implementing 
and monitoring physical activity goals of the local wellness 
policy requirements.
    I would like to present some data in support of increasing 
physical activity in schools, the barriers that prevent the 
implementation of physical activity goals, and discuss a 
school-based wellness program, Activity Works, that addresses 
the needs of, and the obstacles to, implementing these 
policies.
    Over 33 percent of U.S. elementary school children are 
overweight or obese. Increased Body Mass Index in children has 
been linked to reduced physical activity. Physical activity 
guidelines state that children should engage in 60 minutes of 
activity daily. National surveys of activity patterns indicate 
that less than 50 percent of children meet this goal.
    The 2006 School Health Policies And Programs Study 
indicates that only 3 percent of elementary schools provide a 
daily physical education or its equivalent, and only 13 percent 
of elementary schools provide physical education at least 3 
days per week. A recent audit of the New York state elementary 
schools compliance with physical activity regulations found 
that students in 18 of the 20 sample districts did not meet 
minimum requirements of daily physical education and a weekly 
total of 120 minutes.
    Students were provided only 48 percent of the required 
daily classes and 72 percent of the required class time. School 
districts cited the following reasons for failing to meet 
recommendations: increased academic standards, requirements and 
testing, lack of physical education staff, and inadequate 
facilities and space.
    A local wellness policy includes goals for physical 
activity that are designed to supplement established physical 
education programs, but not replace them. School districts have 
been compliant in formulating physical activity goals.
    However, there is very limited data on the implementation 
and monitoring of these goals. School wellness committees have 
reported that lack of resources such as staff, programs, 
facilities impact on the achievement of these goals.
    In 2007, the health system partnered with schools to 
develop the Activity Work program, which focuses on increasing 
childrens' daily physical activity through an integrated 
classroom approach to meet the needs of wellness policies and 
physical education requirements. It is a community benefit 
program of the health system with additional support from a 
community building grant from Bank of America and the in-kind 
resources for the pilot program from five Long Island school 
districts.
    The program was developed using feedback from an eight-
month discovery process led by the health system and a work 
group of parents, educators, administrators, public health and 
healthcare professionals. The process included a review of best 
practices and obesity prevention recommendations, as well as 
group discussions regarding how to develop a successful school-
based wellness program.
    The stakeholders felt that the initiative should be school-
based, measurable, sustainable, scalable and simple. The 
Activity Works program is unique because it integrates subject 
matter--math, science, language arts, social studies, health, 
art and music--with an exercise physiologist designed by 
permanent exercise protocol.
    The CDs and DVDs contain 10-minute segments with original 
music and activities choreographed to the protocol. The program 
is easily implemented by a classroom teacher who simply loads 
the CD or DVD into a player, and the audio and/or video directs 
the class exercise program. The students learn while they 
exercise.
    The physical education staff supervises its use throughout 
the academic year. Student calendars and sticker rewards offer 
positive behavior reinforcement. Parent newsletters bring the 
program's healthy lifestyle messages home to families.
    Five New York school districts, 30 classes and over 1,000 
students participate in Activity Works. Program feedback has 
been extremely positive. Administrator and educator comments 
include improvement in student attention span, listening 
skills, behavior, fitness and knowledge.
    Students' feedback says the program is fun, interesting, 
and the music and exercises are cool. Parents and their 
children feel they are more--parents feel their children are 
more healthy and active.
    The program has been incorporated into the physical 
education curriculum of three school districts and provides an 
additional 50 minutes of physical education per week, 
increasing daily activity without increasing staffing and space 
needs. It is used as a morning assembly and indoor recess 
program, along with the parent newsletters, enables the schools 
to meet their wellness policy physical activity goals.
    An evaluation study is also being conducted to assess the 
program's effectiveness in obesity prevention, improvement in 
students' self-concept and physical activity, and ease of 
classroom implementation. In order for a wellness policy to be 
effective in promoting healthy lifestyles and prevent obesity, 
it must address physical activity as well as diet.
    However, the support for implementing and monitoring of the 
physical activity goals has been sparse. Schools encounter 
barriers of limited space, time, equipment, programs, and 
trained staff to achieve these goals. Physical activity 
programs that are designed to be integrated into existing 
curriculums using existing space and involve community 
partners, parents and school staff need to be developed and 
supported. Activity Works is an example of one such innovative 
program.
    Thank you very much.
    [The statement of Ms. Copperman follows:]

 Prepared Statement of Nancy Copperman, MS, RD, CDN, Director, Public 
           Health Initiatives, North Shore-LIJ Health System

    Chairwoman McCarthy and members of the Subcommittee on Healthy 
Families and Communities, I am Nancy Copperman, MS, RD, CDN, Director 
of Public Health Initiatives, Office of Community Health of the North 
Shore-LIJ Health System. The Health System is the tenth largest not-
for-profit health system in the Nation that serves the 5.4 million 
residents of Nassau, Suffolk, Queens and Richmond Counties in the New 
York metropolitan area. Thank you very much for giving me the 
opportunity to discuss the importance of implementing and monitoring 
physical activity goals of the Local Wellness Policy requirement as 
established by the Child Nutrition and WIC Reauthorization Act of 2004. 
The local wellness policy was designed to promote the health of 
students and address the growing problem of childhood obesity. I would 
like to present some data in the support of increasing physical 
activity in schools, the barriers that prevent the implementation of 
physical activity goals of the Local Wellness Policies and discuss a 
school-based wellness program, Activity Works, that addresses the needs 
of and obstacles to implementing these policies.
    The prevalence of pediatric overweight and obesity is increasing in 
epidemic proportions in the United States. Over 33% of US children ages 
6-11, were overweight or obese in 2006 representing a tripling of the 
prevalence of obese children since 1980. Several environmental factors 
have been linked to increased Body Mass Index in children. These 
factors include reduced physical activity and increased leisure time 
spent viewing television. Current physical activity guidelines from the 
Expert Committee Regarding the Prevention, Assessment, and Treatment of 
Child and Adolescent Overweight and Obesity are in agreement with 
recommendations from the Centers for Disease Control, the American 
Academy of Pediatrics and the Institute of Medicine. These physical 
activity recommendations state that children should engage in 60 
minutes of physical activity daily. National surveys of childhood 
physical activity patterns indicate that less than 50% of children meet 
this goal. Expanding physical activity programs in elementary schools 
through the implementation and monitoring of Wellness Policies and 
Physical Education requirements can play a significant role in 
containing and even preventing overweight and obesity in children.
    National data from the 2006 School Health Policies and Programs 
Study indicates that only 3% of elementary schools provided daily 
physical education or its equivalent (150 minutes per week in 
elementary schools) and only 13% of elementary schools provided 
physical education at least 3 days per week or its equivalent for the 
entire school year for students in all grades in the school.
    A recent audit of New York State elementary schools compliance with 
physical education regulations found that students in 18 of the 20 
sampled districts did not meet the minimum requirements of daily 
physical education and a weekly total of the required 120 minutes of 
physical education. On average, kindergarten through sixth grade 
students were provided only 48 percent of the required daily classes 
and 72 percent of the required class time. The audited school districts 
cited the following major reasons for the difficulty in meeting the 
minimum physical education requirements:
    1. Increased academic standards, requirements and testing fill 
elementary school schedules which results in limited time for a daily 
physical education class.
    2. Lack of adequate physical education staff to meet frequency and 
time requirements due to budgetary constraints
    3. Inadequate facilities/space to offer additional classes to meet 
the requirements
    A local wellness policy for schools shall, at a minimum include 
goals for nutrition education, physical activity and other school-based 
activities that are designed to promote student wellness in a manner 
that the local educational agency determines is appropriate. It is 
designed to supplement established physical education programs but not 
replace them. Schools districts have been compliant in formulating 
these policies with physical activity goals. However, data on the 
implementation and monitoring of these strategies has not been directly 
measured and reported at this time. School Wellness Committees have 
reported that lack of resources such as staff and facilities impact on 
the implementation of physical activity programs related to their 
physical activity goals.
    In 2007 in an effort to address the childhood obesity epidemic, the 
North Shore-LIJ Health System partnered with schools to develop the 
Activity Works Program which focuses on increasing children's daily 
physical activity through an integrated classroom approach to meet the 
needs of Wellness Polices and Physical Education requirements. The 
program is a community benefit program of the North Shore--LIJ Health 
System with additional support from a Community Building Grant from 
Bank of America and the in-kind resources for the pilot program from 5 
school Long Island school districts. The program was developed using 
feedback from an eight month discovery process led by community health 
professionals from the North Shore-LIJ Health System which convened a 
working group of parents, educators, administrators, public health and 
health care professionals. The process included a review of best 
practices and obesity prevention recommendations from expert panels, 
professional organizations and pediatric obesity experts as well as 
group discussions regarding the potential strengths, weaknesses, 
opportunities and threats to developing a school-based wellness 
program. The stakeholder's consensus was that there is an urgent need 
for elementary school children to increase their physical activity both 
in school and at home to meet not only New York State Department of 
Education requirements but the Center for Disease Control's 
recommendation of 60 minutes of moderate to vigorous activity per day. 
The stakeholders felt that in order for the initiative to be successful 
the following criteria should be met:
    School-based--to impact children where they spend a significant 
portion of their formative years.
    Measurable--to demonstrate realistic outcomes throughout the pilot 
program
    Scalable--a viable offering to any child grades 1-5, anywhere.
    Sustainable--by cultivating participation, usage and loyalty in all 
stakeholders.
    Simple--ease of adoption and implementation as a critical factor 
for success.
    The goal of the Activity Works Program is to prevent obesity in 
elementary school children and is addressed by the following program 
objectives:
    1. Increasing children's physical activity both during school hours 
and outside of school hours through a school-based program.
    2. Decreasing the prevalence of overweight and obesity by promoting 
daily physical activity and healthy nutrition messages.
    3. Demonstrating the feasibility and usability and of a classroom 
based physical activity program by cultivating teacher, administration 
and PTA support.
    4. Increasing the sustainability of the program by integrating it 
into the Physical Education Curriculum of the school to aid in meeting 
Physical Education requirements
    5. Using the program to implement physical activity goals of School 
Wellness policies
    6. Improving children's scholastic competence (knowledge, listening 
skills, and attention span), athletic competence (exercise endurance) 
and behavioral conduct through daily program participation.
    The Activity Works Program is a unique elementary school physical 
activity program that integrates subject matter (math, science, 
language arts, social studies, health, art, and music) with an exercise 
physiologist designed beat per minute exercise protocol. The CDs and 
DVDs contain original music and activities choreographed to the beat 
per minute protocol. The program was specifically created to be easily 
implemented by a classroom teacher who simply loads the CD or DVD into 
a player and the audio and/or video directs the class exercise program. 
The Physical Education staff in-service the classroom teacher on the 
program prior to its implementation and supervise its use throughout 
the academic year.
    The themed Activity Works ``toolkit'' includes facilitator 
guidelines, activity CDs and DVDs, student calendars, sticker rewards 
and parent newsletters. The purpose of the varying monthly themes is to 
maintain high levels of engagement. Age-appropriate themes include 
Human Body Tour, Walk through a Book, Visit an Art Museum, and US Tour. 
The calendars and sticker rewards offer positive behavior reinforcement 
for daily physical activity. The parent newsletters bring the program's 
healthy lifestyle nutrition and physical activity massages home to 
families. The program is currently in 5 New York school districts, 30 
classes and reaches over 1000 students.
    Superintendent, principal, educator, student and parent feedback 
has been extremely positive. Administrator and educator comments 
include improvement in student attention span, listening skills, 
behavior, fitness and knowledge. Student feedback states that the 
program is fun, interesting and the music and exercises are cool! 
Parents feel their children are more active and healthy. The Activity 
Works Program has been incorporated into the physical education 
curriculum of 3 school districts. It is used outside the classroom 
during standard physical education classes, morning assembly and indoor 
recess. The program has provided an additional 50 minutes of Physical 
Education /week increasing daily activity and meeting New York State 
Department of Education Physical Education requirements without 
increasing staffing and space needs. Its use as a morning assembly and 
indoor recess program enables schools to meet their Wellness Policy 
physical activity goals.
    A North Shore-LIJ Institutional Review Board approved evaluation 
study is also being conducted in a sub-set of students from schools 
implementing the Activity Works Program and schools without the program 
who are acting as control subjects. The purpose of this pilot study is 
to evaluate the Activity Works Program effectiveness in obesity 
prevention, improvement of student's self-concept and physical activity 
and ease of classroom implementation by collecting and analyzing 
outcome data.
    In order for a school Wellness Policy to be effective in promoting 
healthy lifestyles for students and prevent obesity it must address 
diet as well as physical activity. A well supported and resourced 
structure has been created by previous Childhood Nutrition 
Reauthorization Acts to improve nutrition standards and nutrient 
quality for school nutrition services including nutrition education 
components. These supports enable schools to implement the nutrition 
goals and objectives of their Wellness Policies. However, the support 
for implementing the Wellness Policy physical activity goals and 
objectives has been sparse. Schools desiring to increase physical 
activity encounter barriers of limited space, time, equipment and 
trained staff to achieve this goal. Physical activity programs that are 
designed to be integrated into existing curriculums utilize existing 
space and involve both physical education and classroom school staff 
need to be developed and supported. By increasing physical activity 
through the integration of subject matter and prescribed exercise in 
the classroom in daily 10 minute sessions, schools can address their 
physical activity wellness policy goals with gradual expansion to after 
school and home activities. Activity Works is an example of one such 
innovative program.
    Thank you.
                                 ______
                                 
    Chairwoman McCarthy. Thank you very much.
    Mr. Felton?

   STATEMENT OF REGINALD FELTON, FEDERAL RELATIONS DIRECTOR, 
               NATIONAL SCHOOL BOARDS ASSOCIATION

    Mr. Felton. Thank you.
    Chairwoman McCarthy, Ranking Member Platts and members of 
the subcommittee, my name is Reginald Felton, director of 
federal relations for the National School Boards Association. 
Representing the nation's nearly 15,000 local school districts 
and over 95,000 local school board members through our state 
school board associations, we wish to thank you for the 
opportunity to address the committee on this important issue 
affecting children enrolled in our public schools.
    Without question, NSBA believes that child nutrition is 
vitally important to fostering a healthy and positive learning 
environment for children to achieve their full potential, and 
that includes efforts to prevent childhood obesity. We believe 
that improving health requires the commitment of all of us and 
our communities, including families, government, employers, and 
local schools. Therefore, local school boards across the nation 
continue to actively promote nutrition education, physical 
education and obesity prevention.
    As an organization, we want you to know that, through our 
school health programs department, we help school policymakers 
and educators make informed decisions about health issues 
affecting the academic achievement and healthy development of 
students and the effective operations of schools. Services are 
provides with and through NSBA's member state associations in 
partnership with other national organizations, such as the 
National Association of State Boards of Education, the Alliance 
for a Healthier Generation, and Action for Healthy Kids.
    Additionally, NSBA is very proud of its efforts to promote 
nutrition in the schools and to prevent childhood obesity 
through Web-based services, educational programming, and 
publications. A summary of our efforts is provided as an 
appendix to our statement.
    In addition to the work of our own organization, local 
school boards are engaging their communities, through 
partnership and coalitions, to ensure that all facets of the 
community are more informed regarding both the value and cost 
savings associated with improved nutrition. We are convinced 
that local communities and states are assuming greater 
responsibility for the health and well-being of its residents, 
and very much appreciate the strong support of the federal 
government through incentives and grants that enable school 
districts and local communities to further expand their local 
commitment and energy.
    We know that educating children as to the healthy behavior 
is most important if we are to ensure sustained changes in 
nutritional habits. As you prepare for the reauthorization of 
the Child Nutrition Act, we urge you to increase and expand 
those incentives and grants that will garner solid buy-in and 
commitment on the part of local communities rather than to 
establish broader mandates beyond the current federally 
subsidized food programs.
    We appreciate your concern to improve nutrition, but we are 
very much concerned with the unintended consequences that are 
beyond the control of our local schools. We remain concerned 
that the behavioral changes that you desire and expect, through 
expanded federal mandates and restrictions beyond currently 
federally subsidized programs, may not be achieved. We believe 
that there would be significant increases in the purchases 
beyond the school grounds, particularly where high school 
students are permitted to leave the campus.
    Secondly, we believe that increased regulatory 
disagreements in schools over what foods and beverages should 
and should not be sold as new products are developed and 
marketed using newly developed food substitutes, and thirdly, 
we believe that there will be increased misunderstandings and 
complaints from parents regarding the banning of certain foods.
    Additionally, local school boards view federal efforts to 
regulate or codify into the statue the types of foods and 
beverages that can and cannot be sold at school events, 
particularly all those school-sponsored activities, as 
intrusive and burdensome on school districts. Such efforts we 
believe would dismiss the work of wellness councils and usurp 
the jurisdiction of local school boards to create a policy that 
reflects the values and capabilities of local communities.
    Therefore, NSBA urges you to reconsider any efforts to 
enact expanded legislation. Beyond the concerns over the 
operational impact of--restrictions, local school boards are 
also concerned with the potential impact on local budgets and 
revenue streams beyond the vending machines. As you are aware, 
the expansion of such federal restrictions on all food and 
beverages beyond the vending machines substantially reduce 
revenues that local schools need to support athletic programs 
and other activities.
    As examples, based on the literal interpretation of the 
language in the proposed bill, local catering businesses 
desiring to provide financial support to schools would be 
allowed to provide to students food products not meeting 
federal standards but would be prohibited from selling those 
same standards to the same students, or schools sponsoring a 
field trip out of town could find itself in noncompliance 
because some of the food products available to the students in 
their travels might not fully meet federal standards.
    As you can see from these two examples, such restrictions 
could result in enormous challenges for our local school 
officials. A national vision for child nutrition is indeed 
needed, but that should not convey, nor equate, to federal 
mandates.
    In closing, we want to reiterate that local school boards 
are committed to improving child nutrition and preventing 
obesity, and we clearly view wellness policies as important. We 
are very committed to changing attitudes and sustaining 
positive behavior related to nutrition. Therefore, we feel that 
community-based decisions are much more effective in the long 
run than mandates from the federal government.
    Federal mandates on our public schools should not be the 
vehicle for changes in society. In our view, federal mandates 
on what is sold in all school-sponsored activities is far 
beyond what is needed or should be adopted.
    We look forward to working with you as you approach the 
reauthorization. And again, thank you for the opportunity to 
come.
    [The statement of Mr. Felton follows:]

      Prepared Statement of Reginald M. Felton, Director, Federal 
            Legislation, National School Boards Association

    Madam Chairwoman: My name is Reginald M. Felton, director of 
federal relations at the National School Boards Association (NSBA). 
Representing the nation's nearly 15,000 local school districts and over 
95,000 local school board members through our state school boards 
associations, we wish to thank you for the opportunity to address the 
Committee on this important issue affecting children enrolled in our 
public schools.
NSBA Position
    Without question, NSBA believes that child nutrition is vitally 
important to fostering a healthy and positive learning environment for 
children to achieve their full potential--and that includes efforts to 
prevent childhood obesity. We believe that improving health requires 
the commitment of all of us in our communities including families, 
government, employers and local schools. Therefore, local school boards 
across the nation continue to actively promote nutrition education, 
physical education, and obesity prevention.
    As an organization, we want you to know that through our School 
Health Programs department, we help school policymakers and educators 
make informed decisions about health issues affecting the academic 
achievement and healthy development of students and the effective 
operation of schools. Services are provided with and through NSBA's 
member state associations of school boards, in partnership with other 
national organizations, such as the National Association of State 
Boards of Education, Alliance for a Healthier Generation, and Action 
for Healthy Kids.
    Additionally, NSBA is very proud of its efforts to promote 
nutrition in the schools and to prevent childhood obesity through web-
based services, educational programming, and publications. A summary of 
our efforts is provided as an appendix to our statement.
    In addition to the work of our own organization, local school 
boards are engaging their communities through partnerships and 
coalitions to ensure that all facets of the community are more informed 
regarding both the value and cost-savings associated with improved 
nutrition.
    We are convinced that local communities and states are assuming 
greater responsibility for the health and well-being of its residents, 
and very much appreciate the strong support of the federal government 
through incentives and grants that enable school districts and local 
communities to further expand their local commitment and energy. We 
know that educating children as to healthy behavior is most important 
if we are to ensure sustained changes in nutritional habits.
    As you prepare for the reauthorization of the Child Nutrition Act, 
we urge you to increase and expand those incentives and grants that 
will garner solid buy-in and commitment on the part of local 
communities rather than to establish broader mandates beyond the 
current federally subsidized food programs. We appreciate your concern 
to improve child nutrition, but we are very much concerned with the 
unintended consequences that are beyond the control of our local 
schools.
    We remain concerned that the behavioral changes that you desire and 
expect through expanded federal mandates and restrictions on foods 
beyond current federally subsidized programs may not be achieved. From 
a local school board's perspective, we believe that what is likely to 
happen is that there would be:
    1. Significant increases in purchases beyond the school grounds, 
particularly where high school students are permitted to leave the 
campus for lunch;
    2. Increased regulatory disagreements in schools over what foods 
and beverages should and should not be sold as new products are 
developed and marketed using newly developed food substitutes; and
    3. Increased misunderstandings and complaints from parents 
regarding the banning of certain foods and beverages.
    Additionally, local school boards view federal efforts to regulate 
or codify into statute the types of foods and beverages that can and 
cannot be sold in schools throughout the entire school day and at 
school events as overly intrusive and burdensome on school districts. 
Further, such efforts would dismiss the work of wellness councils and 
usurp the jurisdiction of local school boards to create a policy that 
reflects the values and capabilities of local communities.
    In our view, these new requirements could also result in additional 
unintended consequences that could require the redirection of time and 
resources away from the school's primary responsibilities. Therefore, 
NSBA urges you to reconsider any efforts to enact expanded legislation.
    Beyond the concerns over the operational impact of such expanded 
restrictions, local school boards are also concerned with the potential 
impact on local budgets and revenue streams. As you are aware, the 
primary responsibility of local school boards is to deliver high 
quality educational programs to ensure that students are career- and 
college-ready to compete in the global society. The expansion of such 
federal restrictions on all foods and beverages could substantially 
reduce revenues that local schools need to support athletic programs 
and other activities that promote the overall development and well-
being of all students.
    As examples, based on a literal interpretation of the language in 
the proposed bill, local catering businesses desiring to provide 
financial support to a school would be allowed to provide to students 
food products not meeting the federal standards--but would be 
prohibited from selling those same products to the same students * * * 
or a school sponsoring a field trip out of town could find itself in 
non-compliance because some of the food products available to the 
students in their travels might not fully meet federal standards. As 
you can see from these two examples, such restrictions could result in 
enormous challenges for local school officials.
    We do not want local school districts to be caught in a bind 
between demands to sustain a quality learning environment and concern 
over potential allegations of non-compliance because of the complexity 
in operations of such proposed legislation. Therefore, NSBA urges 
Congress to refrain from enacting legislation that would further 
restrict local authority and create additional operational barriers.
A New Federal Role
    A national vision for child nutrition is needed but that vision 
should not convey nor equate to federal mandates. A national vision for 
child nutrition should reflect the understanding of current authority 
and Constitutional responsibilities of states and local communities, 
and re-define the role of the federal government so that it promotes 
national policies within the framework that supports states and local 
communities. Beyond child nutrition, the federal government should 
acknowledge more broadly that the efforts over the previous decade to 
employ a ``top-down approach'' have not worked. The federal role should 
be one of partnership and support to the states and local communities. 
In a paper entitled A New Era in Education: Redefining the Federal Role 
for the 21st Century, NSBA suggests a potential theme for the new 
federal role might be ``facilitate, don't dictate.''
Local School Board Commitment
    As you are aware, the Child Nutrition and Women, Children, and 
Infants Reauthorization Act, passed by Congress in 2004, requires every 
school district participating in the federal school meals program to 
enact a wellness policy by the 2006-2007 school year. These policies 
now address:
    <bullet> Goals for nutrition education;
    <bullet> Goals for physical activity;
    <bullet> Nutrition guidelines for all foods available at school;
    <bullet> Goals for other school-based activities designed to 
promote student wellness;
    <bullet> Assurances that school meal guidelines are not less 
restrictive than federal requirements; and
    <bullet> Plans for evaluating implementation of the policy.
    To illustrate the success of the current law, a study conducted by 
the Pennsylvania State University on Local Wellness Program (LWP) 
implementation among Pennsylvania local school districts indicates 
that:
    <bullet> 84 percent of the districts have written implementation or 
action plans developed for some of their goals.
    <bullet> 91 percent of the school districts have functioning 
wellness committees.
    With respect to nutrition education:
    <bullet> 50.3 percent of the school districts reported that their 
students receive more minutes of nutrition education now than they did 
prior to the establishment of local wellness policies.
    <bullet> 58.2 percent of the school districts reported that their 
students are receiving higher quality nutrition education now than they 
were prior to the establishment of local wellness policies.
    This data suggests that a majority of local school boards across 
the nation are actively engaging their communities, as they should, to 
create policies and local requirements that have the full support of 
the people in their local communities.
Summary
    In closing, we want to reiterate that local school boards are 
committed to improving child nutrition and preventing obesity, and we 
clearly view wellness policy as important. We believe that as these 
local school board actions increase, positive changes in behavior will 
take place reflecting the will of the local communities. We are very 
committed to changing attitudes and sustaining positive behavior 
related to nutrition. Therefore, we feel that community-based decisions 
are much more effective in the long run than mandates from the federal 
government.
    Federal mandates on our public schools should not be the vehicle 
for changes in society. In our view, federal mandates on what is sold 
in our schools and what cannot be sold in our schools beyond federally 
subsidized food programs should not be adopted.
    We believe that significant improvements in child nutrition and 
health will not be achieved through the expanded authority of the 
Secretary of Agriculture. Rather, it will be through the active 
engagement of local communities that hold strongly to the belief that 
those at the local level should best make such determinations.
    Thank you again for the opportunity to share our views.
National School Boards Association's Efforts to Support Child Nutrition
    Web-based Services through NSBA's School Health Programs: 
www.nsba.org/SchoolHealth
    <bullet> ``101'' packets on Wellness, Nutrition, Physical Activity 
and Coordinated School Health to provide the data, background 
information, research and sample policies to support local school board 
decision making.
    <bullet> ``Promising District Practices'' website that provides the 
``stories'' of how school districts have acted to address healthy 
eating and physical activity.
    <bullet> ``Updates and Special Announcements'' that alert school 
officials to new research and reports on a wide range of health topics, 
including childhood obesity, to inform decision making. Users can sign 
up to obtain the ``Updates'' via an RSS feed.
    <bullet> Searchable database of research, information and sample 
policies.
            Educational Programming
    <bullet> At NSBA's annual conference, several sessions in 
partnership with such organizations as the Alliance for a Healthier 
Generation, Action for Healthy Kids, and the School Nutrition 
Association.
    <bullet> Symposium on Childhood Obesity (July 2008, Little Rock, 
AR) for 12 state teams that include members of state boards of 
education and local school board members to drive initiatives/policy 
change in states based on state conditions, needs and capacity. Follow-
up technical assistance provided to state teams. This activity is 
supported by Leadership for Healthy Communities, a national program of 
the Robert Wood Johnson Foundation.
            Publications
    <bullet> Special report in American School Board Journal (February 
2009) on ``Health and Leadership'' focusing on childhood obesity. This 
report was produced with support from Leadership for Healthy 
Communities, a national program of the Robert Wood Johnson Foundation.
    <bullet> Articles on nutrition, physical activity, health and 
wellness are frequently published in American School Board Journal.
    <bullet> Participation in the development of Action Strategies for 
Healthy Communities, a new toolkit for state and local policymakers to 
develop policy measures addressing issues around childhood obesity, 
including nutrition in schools (in partnership with Leadership for 
Healthy Communities, a national program of the Robert Wood Johnson 
Foundation).
                                 ______
                                 
    Chairwoman McCarthy. Thank you.
    Ms. Byrnes, I am sorry that you had to wear whatever you 
are wearing all this time. Hope you are going to demonstrate 
what that is.

 STATEMENT OF SUSAN P. BYRNES, FOUNDER, SUSAN P. BYRNES HEALTH 
                        EDUCATION CENTER

    Ms. Byrnes. I will demonstrate. And thank you very much for 
inviting me here. I am thrilled to finally find where everyone 
was.
    First of all, I wanted to share with everyone that no goal 
in life is possible without one's health. In 1988, I quit my 
job as an emergency department nurse. Professionally and 
personally, I had witnessed physical and emotional suffering of 
patients and families due to unhealthy lifestyle choices. I 
made a new life goal: to keep people well.
    In 1989, with support from hundreds of dedicated business 
professionals, healthcare providers, educators, parents and 
organizations that sustain our communities every day, the 
Central PA Health Education Center was incorporated as a 
501(c)3. In 1995, after 6 years of planning and preparation, 
the bright red doors of the newly dedicated and renamed Susan 
P. Byrnes Health Education Center were open to the children and 
citizens of central Pennsylvania and northern Maryland.
    What began as two teaching theaters in a refurbished 
downtown historic car dealership site has blossomed into 
today's 20,000 square foot home with five teaching theaters, 
over $1.5 million of interactive exhibits, and over 50 
specialized educational offerings that include regional 
outreach programs to children and students and teachers in 
seven counties.
    In addition to this, children and teachers throughout the 
United States, and indeed internationally, over 168 countries, 
log onto our e-learning site. We have 95,000 international 
members that log on to learn about health on our Web site.
    All 50 programs at the Byrnes Health Education Center meet 
state and national guidelines. Our nutrition and fitness 
programs are offered as an integrated series that empower 
students to adopt healthier lifestyles.
    For pre-K and kindergarten students, we offer, ``The Inside 
Story;'' grade two, ``Fueling My Special Body;'' grade three, 
``Let's Get Physical;'' grade four, ``Just Fueling Around;'' 
grade five, ``Healthy Hearts;'' grade six, ``Fat: What is Up 
With That,'' and I will get to that; and grade eight, ``Extreme 
Makeover.''
    How do schools come to the Byrnes Health Education Center? 
If you were a fifth grade teacher, you would look at our 
program guide. We have over 50 programs listed here.
    You would look and you would see what you are teaching in 
your classroom. You would come for one or two programs. You 
would get on your school bus and you would come to the Byrnes 
Health Education Center.
    If you couldn't afford to do that, we have outreach 
programs. And if you couldn't afford to do that, that is where 
we have our free Web site called learntobehealthy.org.
    What we have in our teaching theaters, if you would come to 
our theaters, we have enthusiastic educators that teach with 
our larger-than-life interactive exhibits. They incorporate the 
wow factor and the fun factor into health education. We believe 
that students learn by seeing, hearing and doing, and the 
students are involved in the educational activities.
    What I would like to do is demonstrate. This is one of our 
least expensive exhibits. This is 20 to 25 to 30 pounds of fat. 
We are not sure.
    But why I brought this is, for every pound of fat that we 
put on our bodies, our bodies have to produce 200 miles of 
blood vessels to nourish that fat. That is what these little 
red things are. Those are the blood vessels that nourish fat.
    So if you put on 20 extra pounds, you are putting on 4,000 
miles of blood vessels that your little heart that weighs less 
than a pound has to now pump through. And if those vessels 
become filled with fat, imagine what happens to this little 
heart that has to pump through--normally we have 60,000 miles 
of blood vessels.
    The kids actually put this on, and then we ask them to run 
and/or to do jumping jacks. And what we are trying to show them 
is we are trying to give them information so that they will 
continue to make healthy choices.
    When Dr. Oz came to our health education center this past 
October, he was teaching a heartbeat--a heart-healthy program 
with our little ones. And he looked at me and he said, ``Why 
doesn't every community have a health education center?'' And I 
said, ``Well, in fact, 34 communities in this nation have 
health education centers in 22 states,'' and we reach 10,000 
school districts. And every year, 3.7 million students are 
educated in health education centers.
    However, the National Coalition of Healthcare says that, in 
2009, the United States is going to spend $2.9 trillion on 
disease. So it is time to turn the corner. And I am here, 
thanks to Todd, to say to you that every community can have a 
health education center.
    Thank you.
    [The statement of Ms. Byrnes follows:]

  Prepared Statement of Susan P. Byrnes, R.N., Susan P. Byrnes Health 
                            Educaton Center

    In 1988, I quit my job as an Emergency Department R.N. 
Professionally and personally I had witnessed physical and emotional 
suffering of patients and their families due to unhealthy lifestyle 
choices. I made a new life goal: keeping people WELL.
    In 1989, with support from hundreds of dedicated business 
professionals, healthcare providers, educators, parents and 
organizations that sustain our communities every day, the Central PA 
Health Education Center was incorporated as 501(3)c.
    In 1995, after six years of planning and preparation, the bright 
red doors of the newly dedicated and renamed, Susan P. Byrnes Health 
Education Center, were opened to the children and citizens of Central 
PA and Northern MD.
    What began as two teaching theaters in a refurbished, downtown, 
historic car dealership site has blossomed into today's 20,000 sq. ft 
home with five teaching theaters, over 1.5 million dollars of 
interactive exhibits and over fifty specialized educational offerings 
that include regional outreach programs to seven counties. Children 
throughout the U. S. and over 168 countries around the world now 
utilize our health educational tools through our e-learning programs. 
The business community provides customized, educational programs to 
employees and their families through our corporate wellness works 
division.
    All 50 Programs of the Byrnes Health Education Center meet state 
and national health education guidelines. Our Nutrition and Fitness 
programs are offered as an integrated series that empower students to 
adopt healthier lifestyles:
    <bullet> Pre-K/K: Inside Story
    <bullet> Grade 2: Fueling My Special Body
    <bullet> Grade 3: Let's Get Physical
    <bullet> Grade 4: Just Fueling Around
    <bullet> Grade 5: Healthy Hearts
    <bullet> Grade 6: Fat: What's Up With That
    <bullet> Grade 8: Extreme Makeover
    Our enthusiastic educators teach using our dramatic, larger that 
life, interactive exhibits. They incorporate the WOW and FUN factors 
into every program. We believe that students learn by seeing, hearing 
and doing and they are very hands-on with our health education lessons. 
(demonstration of fat vest with Todd Platts)
    When Dr. Oz participated in our heart healthy program with special 
after school scholars in Oct. '07, he asked: ``Why doesn't every 
community have a health education center?''
    There are 34 health education centers in 22 states that reach 
10,000 schools and 3.7 million students every year!
    We are organized as the National Association of Health Education 
Centers. www.nahec.com
    Our collective VISION as a national organization is that empowered 
children and adults building healthier communities result in decreased 
healthcare costs.
    In 2009, the U. S. spent 2.9 trillion dollars on treatment of 
disease.
    It is time to spend billions on health education and prevention.
    Thank you for the opportunity to speak with you today.
                                 ______
                                 
    Chairwoman McCarthy. Thank you.
    Dr. Ritchie?

  STATEMENT OF LORRENE DAVIS RITCHIE, PH.D., RD, DIRECTOR OF 
         RESEARCH, ATKINS CENTER FOR WEIGHT AND HEALTH

    Ms. Ritchie. Good afternoon, Madam Chair, Congressman 
Platts, and members of the committee. My name is Lorrene 
Ritchie, and I am the director of research at UC Berkeley's Dr. 
Robert C. and Veronica Atkins Center for Weight and Health.
    The Center for Weight and Health is one of the only obesity 
prevention research centers in the nation to focus primarily on 
environmental and policy solutions to preventing pediatric 
overweight. Thank you for the opportunity to provide input on 
the reauthorization of the special supplemental nutrition 
program for women, infants and children, particularly in 
regards to preventing child obesity.
    The WIC program offers us an unparalleled opportunity to 
prevent the development of nutrition-related health problems at 
the most critical stages of life--during pregnancy, post-
partum, breastfeeding, and in early childhood and infancy.
    As you have heard today, it is critical, too, because child 
obesity oftentimes begins very early in life. Obesity 
prevention strategies must therefore begin at a very, very 
young age.
    We have a golden opportunity here to position federal child 
nutrition programs to prevent obesity. And if we do not, this 
generation of children may be the first in our nation's history 
to live a shorter life than their parents.
    I offer the following four suggestions for strengthening 
WIC's nutrition services to better address child obesity. My 
first recommendation is to increase time for nutrition 
education in WIC. Making healthful choices for one's family 
requires a knowledge base, yet many parents have minimal or no 
education in nutrition. I myself had to go to graduate school 
before I learned what to eat.
    Optimal nutrition education requires sufficient time at WIC 
appointments. How can this be achieved? First, ensure that 
there is adequate funding for the nutrition services and 
administration portion of the WIC appropriation.
    Second, redirect time from time-consuming processes like 
certification activities to education. Currently, states have 
the option to certify infants and breastfeeding women for 1 
year at a time.
    However, the eligibility period for children, who make up 
one-half to two-thirds of those enrolled in WIC, remains every 
6 months. Allowing annual certification for children would 
allow WIC staff to redirect their focus from paperwork to the 
provision of much-needed guidance on obesity prevention.
    My second recommendation is to increase targeted funding 
for breastfeeding promotion. The values of breastfeeding are 
numerous and well documented in the scientific literature. 
Breastfeeding not only reduces infectious disease and chronic 
disease, but it also helps reduce the risk of obesity.
    WIC is a proven national leader in breastfeeding promotion. 
In California, for example, rates of breastfeeding have 
increased by as much as 11 percent in WIC agencies that have 
implemented the breastfeeding peer counseling program with 
special funds appropriated by Congress.
    Evaluation of this peer counseling is important so that we 
can identify ways to adapt it to different populations and 
different settings, yet funds are currently not allocated for 
evaluation purposes. Moreover, current funding for peer 
counseling is not adequate to ensure that all WIC mothers who 
need it, get it.
    My third recommendation is to coordinate nutrition 
messaging across federal nutrition assistance programs. Among 
the child nutrition programs, WIC is the leader in nutrition 
education. A key way to strengthen WIC is to align the 
nutrition messages in all federal food programs, particularly 
the supplemental nutrition assistance program and the childcare 
food program, which serves similar populations.
    Without this, WIC messages are more likely to get diluted 
and lost in what you know is a daily barrage of alternative 
messages we more oftentimes hear for less nutritious foods.
    My fourth and final recommendation is to increase funding 
to support WIC evaluation and outcomes research. To ensure that 
WIC continues to provide the most nutritious packages of foods 
possible within its budgetary constraints, Congress should 
protect the scientific integrity of the new food packages and 
require periodic reassessment. The WIC food packages should be 
re-evaluated at a minimum of every 10 years to reflect 
important changes in what we know about science and nutrition 
and updates in the national nutrition guidelines.
    Lastly, I urge you to increase funding for evaluations that 
will help us build the evidence base for cost-effective and 
transferable WIC best practices that demonstrate promise in 
preventing obesity. We need to discard what isn't working and 
strive to optimize the return from WIC's proven investment in 
nutrition services for the millions of at-risk families with 
young children who participate in WIC.
    Thank you for the opportunity to share with you these 
comments on strategies to strengthen the invaluable WIC 
program.
    [The statement of Ms. Ritchie follows:]

Prepared Statement of Lorrene Ritchie, Ph.D., RD, Director and Adjunct 
  Professor, Dr. Robert C. and Veronica Atkins Center for Weight and 
                    Health, University of California

    My name is Lorrene Ritchie, and I am the Director of Research at UC 
Berkeley's Dr. Robert C. and Veronica Atkins Center for Weight and 
Health. The Center is an obesity prevention research center, the only 
one in the nation focusing on primarily environmental and policy 
approaches to prevent pediatric obesity. I am a co-author on the book 
Obesity: Dietary and Developmental Influences. I have also been an 
Evidence Analyst for the American Dietetic Association (ADA), co-
authored the ADA's Position Paper on Pediatric Weight Management and 
was a member of the ADA's Pediatric Weight Management Workgroup to 
formulate evidence-based practice guidelines for dietetic 
professionals.
    Thank you for the opportunity to provide input on the 
reauthorization of the Special Supplemental Nutrition Program for 
Women, Infants and Children (WIC) particularly regarding approaches to 
reducing the epidemic of childhood obesity. The WIC program offers an 
unparalled opportunity to prevent the development of nutrition-related 
health problems at the most critical stages of life--pregnancy, 
infancy, and young childhood. Additionally, the program reaches a 
population in the U.S. with the highest risk for obesity and its 
related health challenges, while at the same time having the least 
access to resources for prevention. This is an unprecedented time for 
WIC, because across the country WIC is beginning to implement the new 
Food Packages. We applaud the USDA's decision to contract with the 
Institute of Medicine to conduct a study of the WIC foods and to adopt 
the resulting recommendations into the Final Food Package Rule. The 
changes to the WIC Food Packages represent an extraordinary step in 
improving this federal nutrition program to address child obesity. In 
addition to the food package changes, WIC's impact can be strengthened 
by enhancing the nutrition services provided as identified in the five 
recommendations I will outline.
    The statistics on child obesity are staggering and unprecedented. 
Obesity rates among children in the United States have more than 
tripled in the last 30 years (Ogden, 2002, 2008). Of most concern, 
obesity is increasingly affecting our nation's youngest children. 
Before beginning school, nearly one out of every 5 preschool-age child 
is already obese (Anderson, 2009). Obese preschoolers are more likely 
to grow into obese adolescents and obese adults (Nader, 2006; Gardner, 
2009). Increasing numbers of children are developing type 2 diabetes, 
early signs of clogged arteries, and sleep and breathing difficulties--
side-effects of poor nutrition and excess weight gain (Dietz, 1998; 
Messiah, 2009). Obesity in youth is contributing to escalating health 
care costs (Trasande, 2009). Poor nutrition is also related to reduced 
concentration and behavioral problems, which in turn, can impact a 
children's ability to succeed in school (Florence, 2008). A growing 
body of research further suggests that a child's dietary and health 
habits form at a young age--prior to entering elementary school 
(Patrick, 2005). The link between early behaviors and obesity later in 
life leads to the conclusion that successful obesity prevention 
strategies must begin at a very young age. In fact, they should begin 
prenatally and in the first hour of life. If we do not take bold steps 
now to improve nutrition and prevent obesity, the present generation of 
young children will likely be the first in our nation's history to live 
a shorter life than their parents.
    What is contributing to this excess weight gain? On the surface, 
this problem seems deceptively simple--too many calories consumed and 
too few calories burned. However, the forces that lead to this energy 
imbalance on a population level are numerous and pervasive. Healthy 
food and beverage options generally require more time, money, energy 
and effort to consume than less healthy options. In particular, low-
income families face numerous challenges including excessive weight 
gain in pregnancy, low initiation and duration of breastfeeding, 
overfeeding of formula, and inaccessibility to healthful foods. It is 
essential to position federal child nutrition programs so that we can 
begin to address these issues.
    Fortunately, there are several changes to WIC to consider that 
could continue to make WIC an even more effective public health 
nutrition program. I offer the following suggestions for strengthening 
the nutrition services components of the WIC Program to address child 
obesity.
    Recommendation #1: Maintain and increase time for nutrition 
education in WIC.
    Making healthful choices for one's family requires a knowledge 
base. Many young parents have had minimal or no nutrition education and 
as they begin their family they are charged with the most important 
preventive health decisions for their families. Our WIC studies show 
that WIC education can be effective. Optimal nutrition education 
requires sufficient time at WIC appointments to talk with WIC families 
about their nutrition-related concerns and assist them with overcoming 
the many barriers to healthy choices. One way to address the need for 
additional staff time with WIC participants is to ensure that there is 
adequate funding for the Nutrition Services Administration portion of 
the WIC appropriation. Another way is to reduce time spent on time-
consuming administrative activities.
    Precious minutes with WIC families can be saved by extending the 
``certification period'' (how often a child has to be assessed for 
eligibility for WIC) for children. Currently states have the option to 
certify infants and breastfeeding women for 1 year at a time. However, 
the current eligibility period for children--who make up nearly two-
thirds of those enrolled in WIC--remains every 6 months. This simple 
change would allow WIC frontline staff to redirect their focus from 
paperwork to the provision of timely and preventive anticipatory 
guidance for a vulnerable population.
    Recommendation #2: Congress should ask the USDA to commission a 
comprehensive scientific review of WIC biochemical assessment and 
testing regulations.
    There is no question that WIC has a role to play in screening for 
and educating about prevention of iron-deficiency. But it is time to 
ask: what is the suitable WIC role, and what level of screening is 
appropriate, given the current public health challenges facing our 
population? Given the reduction in iron deficiency anemia concurrent 
with the dramatic rise in childhood obesity (Sherry, 2001; Polhamus, 
2009), an evaluation of the relevance of the WIC blood test 
requirements is warranted in much the same way that an evaluation of 
the relevance of the WIC Food Packages was conducted (CWA, 2009).The 
substantial cost of WIC anemia screening takes precious Nutrition 
Services funds from focusing on obesity prevention. These funds could 
be better used by local programs to harness the WIC program's full 
capacity to address the obesity epidemic.
    Recommendation #3: Increase targeted funding for breastfeeding 
promotion.
    The values of breastfeeding are numerous and well known. WIC can be 
extremely successful in this arena. Breastfeeding is a low-cost way to 
promote health in children--it reduces infectious disease and chronic 
disease as well as reduces risk of obesity (Ip, 2007). Targeted funding 
for breastfeeding promotion and support activities, including the 
Breastfeeding Peer Counseling Program funding, is critical for WIC to 
continue its efforts to increase the rates and duration of exclusive 
breastfeeding. In California, breastfeeding rates have increased by as 
much as 11% in WIC agencies that have implemented the Breastfeeding 
Peer Counseling Program with special funds appropriated by Congress 
(Public Health Foundation Enterprises WIC, 2009). Careful evaluation of 
the Breastfeeding Peer Counseling Program is important so we can 
understand which interventions are most effective and why. However, 
none of the funding for the program can be used for evaluation. 
Moreover, current funding for the Breastfeeding Peer Counseling Program 
is not adequate to ensure that all WIC mothers who need it have access 
to peer counseling.
    Recommendation #4: Coordinate nutrition messaging across federal 
nutrition assistance programs.
    Studies show that nutrition education can be effective in 
influencing knowledge, attitudes and behaviors. A key way to strengthen 
WIC is to strengthen and align the nutrition messages in the other 
federal food programs. Otherwise the WIC messages get diluted and lost. 
It is critical to improve coordination of nutrition messaging and 
health education efforts between WIC and other nutrition assistance 
programs serving the same population, in particular the Supplemental 
Nutrition Assistance Program (SNAP--the new name for federal Food Stamp 
Program) and the Child and Adult Care Food Program (CACFP--which is the 
school meal program equivalent in the child care setting).
    Federal nutrition education messages need to be targeted and 
cohesive, strategic, providing families with young children with 
coordinated, culturally appropriate messages that encourage and support 
healthy food and activity choices and promote breastfeeding. 
Unfortunately, federal nutrition education efforts are the David to 
private industry's Goliath in terms of resources spent, thus making the 
need for strong, consistent federal messaging even more important until 
food marketing to young children is eliminated.
    Recommendation #5: Increase funding to support WIC evaluation and 
outcomes research.
    Lastly, I urge you to increase funding for additional large-scale 
and robust evaluations that will help us build the evidence-base for 
cost-effective and transferable WIC-based best practices, special 
interventions and service delivery innovations that can demonstrate 
promise in preventing obesity, its precursors, and its consequences. I 
am not suggesting we invest more money to prove once again that WIC 
achieves its overall goals to improve participant nutrition and 
health--numerous studies have repeatedly demonstrated that WIC improves 
diet, birth outcomes, infant feeding practices, cognitive development 
in children, immunization rate, and savings in health care costs (USDA, 
2009). Instead, I emphasize the critical need for a closer examination 
and comparison of the costs and benefits of multiple strategies used in 
nutrition services delivery, nutrition education, breastfeeding 
promotion and direct service activities so that we build upon what 
works, discard what isn't working and continue to get the most return 
from WIC's unique investment in these nutrition services to millions of 
families.
    For example, as a result of the FitWIC obesity prevention 
initiative, we learned that investing in staff wellness was important 
in increasing staff's effectiveness in engaging participants in obesity 
prevention behaviors (Crawford, 2004). Based on these findings and 
other studies, California WIC has supplemented implementation of the 
new WIC Food Packages to include employee wellness training, enabling 
staff to counsel more effectively while supporting them to adopt 
healthy behaviors in their own lives (California Dept. of Public 
Health, 2009). In our WIC studies, we have noted a great deal of 
variation in outcomes across WIC agencies. Systemically examining the 
factors that contribute to these variations between agencies is another 
example of how evaluation could lead to program improvements.
    Recommendation #6: Finally, to ensure that the WIC Food Package is 
responsive to changes in nutritional needs of women, infants and 
children and in the food supply, we urge periodic assessments of the 
Food Package.
    While, we are thrilled with the Final Food Package Rule and greatly 
appreciate the leadership demonstrated by USDA in making significant 
changes to the Food Packages, we want to be sure that there is 
opportunity for timely future revisions. To ensure that WIC continues 
to provide healthy food that complements the most current nutrition 
education and information provided to families by WIC staff, we 
strongly urge that the Child Nutrition Act be strengthened to require 
that the WIC Food Packages be re-evaluated at a minimum of every ten 
years to reflect current national nutrition guidelines, thus coinciding 
with the updates to the Dietary Guidelines.
    Thank you for the opportunity to share with you these comments on 
strategies to continually strengthen and update the invaluable WIC 
program.

                              BIBLIOGRAPHY

Anderson SE, Whitaker RC. Prevalence of obesity among US preschool 
        children in different racial and ethnic groups. Arch Pediatr 
        Adolesc Med. 2009;163:344-348.
California Department of Public Health. Healthy Habits Campaign. 2009. 
        Available at:
  ww2.cdph.ca.gov/programs/wicworks/Pages/WICHealthyHabitsCampaign.aspx
California WIC Association. Time to Re-evaluate WIC Blood Test 
        Requirements! April 2009. Available at: www.calwic.org.
Crawford PB, Gosliner W, Strode P, Samuels SE, Burnett C, Craypo L, 
        Yancey AK. Walking the talk: Fit WIC wellness programs improve 
        self-efficacy in pediatric obesity prevention counseling. Am J 
        Public Health. 2004;94:1480-5.
Dietz WH. Health consequences of obesity in youth: childhood predictors 
        of adult disease. Pediatrics. 1998;101:518-25.
Florence MD, Asbridge M, Veugelers PJ. Diet quality and academic 
        performance. J Sch Health. 2008;78:209-15.
Gardner DS, Hosking J, Metcalf BS, Jeffery AN, Voss LD, Wilkin TJ. 
        Contribution of early weight gain to childhood overweight and 
        metabolic health: a longitudinal study (EarlyBird 36). 
        Pediatrics. 2009;123:e67-73.
Harris JL, Pomeranz JL, Lobstein T, Brownell KD. A crisis in the 
        marketplace: how food marketing contributes to childhood 
        obesity and what can be done. Annu Rev Public Health. 
        2009;30:211-25.
Ip S, Chung M, Raman G, Chew P, Magula N, DeVine D, Trikalinos T, Lau 
        J. Breastfeeding and maternal and infant health outcomes in 
        developed countries. April 2007. Agency for Healthcare Research 
        and Quality, Rockville, MD. Available at: www.ahrq.gov/clinic/
        tp/brfouttp.htm.
Messiah S. Overweight Preschoolers Raise Their Heart Disease Risk. 
        American Heart Association's Cardiovascular Disease 
        Epidemiology and Prevention Annual Conference. Palm Harbor, Fl. 
        May, 2009.
Nader PR, O'Brien M, Houts R, Bradley R, Belsky J, Crosnoe R, Friedman 
        S, Mei Z, Susman EJ; National Institute of Child Health and 
        Human Development Early Child Care Research Network. 
        Identifying risk for obesity in early childhood. Pediatrics 
        2006;118:e594-601.
Ogden CL, Carroll MD, Flegal KM. High body mass index for age among US 
        children and adolescents, 2003-2006. JAMA. 2008;299:2401-5.
Ogden CL, Flegal KM, Carroll MD, Johnson CL. Prevalence and trends in 
        overweight among US children and adolescents, 1999-2000. JAMA. 
        2002;288:1728-32.
Patrick H, Nicklas TA. A review of family and social determinants of 
        children's eating patterns and diet quality. J Am Coll Nutr. 
        2005;24:83-92.
Polhamus B, Dalenius K, Borland E, Mackintosh H, Smith B, Grummer-
        Strawn L. Pediatric Nutrition Surveillance 2007 Report. 
        Atlanta: U.S. Department of Health and Human Services, Centers 
        for Disease Control and Prevention. 2009.
Public Health Foundation Enterprises WIC Peer Counseling Program Data, 
        Unpublished, 2009.
Sherry B, Mei Z, Yip R. Continuation of the decline in prevalence of 
        anemia in low-income infants and children in five states. 
        Pediatrics 2001;107;677-82.
Trasande L, Chatterjee S. The impact of obesity on health service 
        utilization and costs in childhood. Obesity (Silver Spring). 
        2009 Mar 19.
USDA. Food and Nutrition Service. How WIC Works. 2009. Available at: 
        www.fns.usda.gov/WIC/aboutwic/howwichelps.htm.
                                 ______
                                 
    Chairwoman McCarthy. Thank you very much for that insight. 
We appreciate that, and we heard a few recommendations that you 
wanted.
    We are going to start our round of questionings. My first 
question will go to Ms. Copperman.
    I wanted to commend you for the work that you have been 
doing, especially in my district. I understand you have an 
Activity Works program in several of the schools. Roosevelt, 
Westbury, those are part of my district. I have seen a number 
of the letters from the children that have been sent to me, and 
how they are thrilled with the Activity Works program.
    For example, one student named Ramona Robinson says, ``This 
school year, our class began a new exercise program called 
Activity Works. It is a quick, fun way for us to get up and 
move. We are exercising, but it doesn't feel like it.''
    I have about 10 student letters and would like unanimous 
consent to submit these letters for the record. Hearing no 
objection, so ordered.
    [The information follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                                ------                                

    Chairwoman McCarthy. As I understand it, the program is 
used by children in first, second and third grade. What made 
you target that age group?
    Ms. Copperman. We started with that age group as a pilot 
study because we felt that kindergarten children had special 
needs that were very different than one through three or one 
through four as far as the curriculum and the physical activity 
that they could accomplish in the classroom.
    So we decided to target that age group because we could 
reach more children, and we knew that these children were not 
meeting their physical education requirements, as well as the 
physical activity goals of their wellness policy.
    Chairwoman McCarthy. With some of the issues that Mr. 
Felton brought up, the concern that it might cost the school 
money, time-wise and everything else, how would you answer 
those questions?
    Ms. Copperman. Well, one of the things that we did is we 
talked to the schools and worked with them in designing this 
within the budgetary constraints that they had. So that is how 
we came up with a program that would be delivered by the 
classroom teacher and supervised by the physical education 
teacher so that the schools would not need to devote space or 
extra staff. And the program itself basically costs about $16 
per child per year, so it is fairly cost-effective for the 
amount of activity as well as regulations that it fits.
    So that was one of the reasons why we developed the program 
in the way we did and pilot it to show that it can be 
integrated into a curriculum and that it is feasible before we 
went out and then said, ``Here is a program that is available 
to schools.''
    Chairwoman McCarthy. You said that Bank of America 
basically was involved in working with you on the program. Was 
that developing the program, or was that helping possibly at 
the schools?
    Ms. Copperman. We applied for a community-building grant 
from Bank of America, and that helped us with the production 
costs of the DVDs and CDs so that we would have a product that 
was appropriate for children and that captured their interest, 
because our students now are very sophisticated by the type of 
videos that they watch, so we wanted something--and audios they 
hear. We wanted something that was of equal caliber so that it 
would pique their interest and would be successful, and that is 
how Bank of America helped us.
    Chairwoman McCarthy. Just one final question to you, is 
that with the data that you are collecting, what kind of 
results are you seeing? Do you have any hard data?
    Ms. Copperman. Okay.
    We started collecting the data in the beginning of the 
school year. And currently, now, we are collecting the follow 
up. The data that I do have that is hard is that the teachers 
are using this program four to five times a week on their own, 
so that is number one, and kids are getting daily physical 
activity. The teachers and the educators report that their 
classes are more active, are more interested in learning, and 
are doing better as they see from a subjective point of view.
    The things that we are collecting are BMIs. We want to look 
at prevalence. We don't expect to see a decrease in necessarily 
obesity rates, but what we hope to see is a prevalence 
leveling. This is just one component of a program. I think that 
you also have to look at comprehensive other measures, as 
policies and environmental changes.
    The other thing that we are looking at is self-concept, the 
idea of how kids look at themselves and how they feel about 
themselves, and is that improved by this type of program. And 
as I said before, three out of the five school districts so far 
have integrated this into their curriculum, which shows 
sustainability, which was a major factor that the schools were 
worried about and were hopefully working with other school 
districts in New York state. And we would like nationally to 
show this as a solution to meet their physical education 
requirements and prevent obesity by daily physical activity and 
meet the CDC goal of 60 minutes of physical activity per day.
    Chairwoman McCarthy. You know, obviously I am very 
interested in this type of program, and we are probably going 
to need a little bit more data as it goes on. So certainly we 
would appreciate any data as you go down further in the testing 
and everything.
    Ms. Copperman. Yes. I will send it.
    Chairwoman McCarthy. One of the questions that I wanted to 
ask Dr. Virginia--I have time--Stallings, you recommended 
specific nutrients to be covered within the nutrition 
standards. Can you give us some specific areas that you want to 
go into?
    Dr. Stallings. Well, as you know, the committee is still 
actively deliberating, so I am limited about what I can talk 
about, but those will be part of the recommendations this fall. 
The nutrients that I did mention are the ones that are on the 
old recommendation.
    And then, as we go to the dietary guidelines and the review 
of the nutrient intake requirements, comparing that with what 
children are eating today from our most recent data, what we 
find is the younger children are doing pretty well with getting 
enough nutrients. And actually, elementary school children--and 
all this is in the Phase I report--are doing better with not 
getting too many calories. As you go to middle school and high 
school, you see physical activity go down and energy 
requirements thus go down, and the food intake is not going 
down with that.
    Lastly, the thing we learned, as we go into high school, 
and particularly for the adolescent females, many 
micronutrients are being consumed at rates that would be 
considered inadequate, so as you look across the board, the 
vitamin E, the vitamin A, certainly fiber. So we are able to 
use that as our background. But it is very important, and that 
is part of the work of this committee, is to look across the 
different ages, because there is a lot of change in both 
developmentally and food intake patterns as you go from being 
kindergartener to a high schooler.
    The other part of this is looking at things that there are 
too much of, and that, from the evidence we have now, is 
saturated fat and calories as the primary pieces to that, and 
sodium. Should mention sodium. So those will be nutrients of 
special consideration in the follow-up report.
    Chairwoman McCarthy. Thank you.
    Mr. Platts?
    Mr. Platts. Thank you, Madam Chair.
    I want to thank all of our witnesses here today for taking 
time. And I know the chairwoman and I both share our regrets in 
the amount of time you have had to spend. And that is just 
Murphy's Law with the vote schedule around here, and especially 
here where we had the motion recommit, which adds about a half-
hour to that last series.
    So your patience is greatly appreciated, and your focus on 
this issue, both as elected officials who are the spouse, first 
lady of the state of New York. My wife is from outside of 
Buffalo. My father-in-law has now passed on, but my mother-in-
law is still in the town of Williamsville, and so New York is 
kind of my second home now as we are back and forth regularly.
    And to all of our witnesses, your input--I look at this 
issue as a member of Congress, but again as a dad of a sixth 
grader and fourth grader. I am regularly in my childrens' 
schools, and the most regular visit I make is to have lunch at 
their schools, from when they were in kindergarten to--my sixth 
grader in middle school still invites me to come in, which is--
yes. How long that will last, I don't know.
    And it is interesting that I sit in lunch, and we have the 
card system where we can regulate, as a parent, what they are 
allowed to buy in addition to the main meal, which is a very 
good empowerment for parents so that you can have some say in 
what your children are eating. And we do have a responsibility, 
so, as a parent, I am grateful for what each of you are doing 
in your respective lines of work on this issue.
    Susie, I am going to start with you, because your story in 
York is just such a wonderful one. And I think one of the 
successes of the center has been the ability that you have 
reached out, and all the staff at the center, in partnering 
with our local schools.
    Do you want to touch on how that came to be and the buy-in 
that you have had, which has been so important to the number of 
students that you have been able to reach?
    Ms. Byrnes. Well, I learned very early on you want to start 
from the top, which are the superintendents, but also with the 
teachers and the parents, as well--and the school boards, as 
well.
    But from the very beginning, we got the superintendents and 
the teachers on our Board of Directors, if you will, and then 
we just kept them very close to us. We have also involved them 
in our curriculum. And as I stated, all of our programs are 
tied to state and national health education guidelines.
    The other thing we did is I just visited--we are a regional 
center, so we are in seven counties. But we went out and we 
visited with all the superintendents in our county, which 
happened to be 16, and they all just were singing the praises 
that came up from their teachers after they have been to 
programs at the health education center. So, really, the 
programs and the curriculum really does sell itself.
    But the thing that makes the health education center so 
unique are our educators. And with the exhibits, with the $1.5 
million worth of exhibits and our educators, we make learning 
about the body fun and exciting for both students, the parents 
that are visiting, and then also, of course the teachers. So we 
keep that ongoing dialogue with the schools. And believe me, 
the only reason that more schools aren't coming--we see about 
60,000 kids a year--is due to money.
    Mr. Platts. Yes. Well, I can vouch for your educators. The 
last program I attended with my sixth grader was diversity 
education, which was outstanding, and then the drug prevention, 
and the educators in both were really wonderful. The kids and 
the adults all left thinking, ``Wow,'' you know, it was great.
    And we want you to keep up that great job for our local 
community and have that emulated elsewhere, certainly as we 
referenced, just 22 states. We have a few more to go.
    Ms. Byrnes. A few more.
    Mr. Platts. Dr. Ritchie, I wanted to touch on--you hit on 
something that I really appreciate in the WIC program, the 
issue of breastfeeding. I am blessed with an incredible wife 
who, with both of our children, breastfed both of them, even to 
the point where when she went back to work at about 10 months--
when our first son was 10 months old, for about 8 months or so 
before coming home, she would pump at work and bag the milk for 
later use.
    And when T.J. would go with me to the state capital--I was 
in the State House--I would take frozen milk with me so that 
his diet was breast milk. I got a lot of looks when I was in 
the men's room thawing out breast milk. But through Leslie, I 
learned the extreme importance of this.
    You reference in your testimony about the peer counseling 
program and how there are so many not able to participate. Do 
you have any data of what percentage--you talk about the 
importance of additional funding for this program, of how many 
we are reaching as a percentage. And so, how big is the 
challenge from a funding standpoint?
    Ms. Ritchie. Yes. I am afraid I can't answer that question 
completely, but what I do know is that only a small minority of 
women have access to the peer counseling program.
    So what that means is that this very effective and proven 
program is not getting to many of the women who could use it. 
And what we see instead is that a lot of women, for example, 
when they have their baby in the hospital, they are sent home 
with coupons. They are sent home with a bag full of formula. 
There are a lot of things that set them up to fail in 
breastfeeding.
    And yet, if they can reach out and be engaged with somebody 
who they can relate to who has had those same experiences like 
your wife and has gone through pumping and storing and all of 
the things that go into nursing, they can be empowered to 
overcome the other obstacles that they have in their life.
    So I can't give you the exact statistics on how many WIC 
sites participate in the breastfeeding peer counseling program, 
but what I can tell you is that it is highly effective and that 
we need to do more to get other women that program.
    Mr. Platts. Yes. I see it in a similar way with--we have 
such data with brain development zero to three, and 85 percent 
of brain neurons and stimulation of the brain. This is--if we 
can make that investment at the very beginning, the first hours 
and beyond with breastfeeding, the immunity system and 
everything is so much healthier for the rest of their lives.
    Ms. Ritchie. Yes. It is the perfect nutritious food, plus 
the added benefit of the fact that the scientific literature 
supports that it reduces risk of obesity later in life, not 
even during when the child is----
    Mr. Platts. Yes. I appreciate your highlighting that, 
something that we definitely take a look at as part of the 
reauthorization.
    Ms. Ritchie. Thank you.
    Mr. Platts. Thank you, Madam Chair.
    Chairwoman McCarthy. Thank you for that.
    Kim, who is here on the committee, worked with me in my 
office on educational issues. And she had triplets, and then--
not triplets.
    Voice. Twins.
    Chairwoman McCarthy. Twins.
    Voice. And then a baby.
    Chairwoman McCarthy. And then another baby soon after that.
    But anyway, we actually had started here in Congress where 
we are going to have a nursing room, because so many of the 
members of Congress, believe it or not, are having babies--we 
just had a friend of ours, a colleague, have a baby yesterday--
and most of them all breastfeeding. And I would like to think, 
because of this committee, we have educated more and more 
people that breastfeeding is an important feature.
    Mr. Tonko?
    Mr. Tonko. Thank you, Madam Chair. I have to say, I have 
been sitting here trying to calculate how many additional miles 
of blood vessels I might have created in my activities.
    My first question would be to First Lady Paterson about the 
Healthy Steps To Albany campaign. Can you just discuss, maybe 
develop further for us, please, Michele, the success that has 
been driven by this whole effort?
    Ms. Paterson. Well, when I started the program about 2 
years ago in Harlem, and we had some of the winners come to the 
mansion for the healthy lunch, the kids got up and they talked 
about their experience in the contest, and they talked about 
how they now walk home from school instead of taking the bus, 
how they got their parents involved. They told their parents 
they need to be buying more fresh fruits and vegetables, and 
how their parents even started buying pedometers and got 
involved in the contest.
    And at the end of the 6 weeks, many of the kids talked 
about how they lost weight, and the parents talked about how 
they lost weight as well. Even though that wasn't the focus of 
the contest, that was one of the initiatives.
    And this week tomorrow, as I mentioned, we will be going to 
Buffalo, and then following on Monday to Albany to congratulate 
the winners. So I haven't really had a chance to talk to them 
personally about their experiences, but I am hearing that many 
of the teachers who were involved in the contest as well, with 
the kids encouraging them, got a team together and rallied 
around this initiative and are eating healthy and exercising 
more as well.
    Mr. Tonko. Do you see this as a program that perhaps could 
be replicated across more cities in the state, or beyond the 
state, to include in the country somehow?
    Ms. Paterson. Most definitely. Actually, this is a 2-year 
program, start with upstate this year. Next year we are 
focusing on the five Boroughs--Long Island, Westchester, Orange 
County.
    And I also would like to get the Department of Health 
involved with this initiative to help us maybe track some of 
the results, and it is something that I would like to talk to 
some of the other first ladies around the country about doing 
in their states.
    Mr. Tonko. In your testimony, you also spoke of the 
partnership in New York with the Health and Education 
Departments and the healthcare community, referencing that to 
the Body Mass Index calculations that are done, the 
measurements that are done.
    That screening obviously is helpful in getting results. Can 
you cite any discrepancies or disparities that might have been 
portrayed by that screening? Were there areas of target that 
you think would----
    Ms. Paterson. Well, I am not really aware of right now. I 
know we have a lot of community schools that have nurses in 
their schools and a health center in their schools, and we are 
trying to get them involved more with the BMI testing. But that 
is something that we will have to work on with the Department 
of Health.
    Mr. Tonko. And Dr. Stallings, you made mention of the 
simplification of the menu planning and monitoring processes. 
Can you just elaborate a bit on that, especially with the 
monitoring program, and what you think needs to be improved 
upon?
    Dr. Stallings. Well, again, as I mentioned, what I can 
speak to is in our Phase I report. We have taken a great deal 
of time to try to understand the challenges at the food service 
director's level and in the schools.
    And there are a number of opportunities, I think, to make 
this more simple. As I said, right now, there are two different 
approaches, and really two and a half approaches to putting 
your menu plan out and getting it monitored. Those could be 
simplified and allow then the food service people to focus on 
things, planning that will result in the kind of nutrient and 
food patterns we want.
    We have also heard through testimony and looking at the 
reports from the USDA that, currently, the monitoring and the 
goals of the program aren't completely synchronized. And again, 
it is partly because this has been updated intermittently since 
the late 1940s.
    And what we have the opportunity to do with our committee 
is to look at this thoroughly. We have a number of committee 
members who serve on the ground level, and I can attest that 
they are very appropriately vocal to make sure we keep thinking 
about both the rules being simple, easy to understand, what 
kind of labels we might need to make that work, not being 
dependent on high skill sets in every setting across the 
country.
    That is not necessarily the work environment, and then the 
issues of how we take those, and also continue to understand 
what children want to eat and will eat and turn those, if you 
will, our cultural food patterns for children into more 
healthful diets. And we believe we have got a committee 
together that can address all those operational issues and 
ultimately work with industry.
    As we have been told, both when I was working on the WIC 
program and this, from an industry point of view, if we can 
provide well substantiated recommendations that the government 
would endorse, that helps them actually to produce new and 
helpful products for the school setting.
    It is a really big market. I think we have a really great 
opportunity to engage them around some of these issues. So they 
want a level playing field. They want to know what they should 
aim for.
    Mr. Tonko. It seems to me that it was, like, a three-E 
repetition here today, the exercise, the eating right, and the 
education. That kind of equals the soundness of an outcome.
    Across the board, I would ask you, which of those three Es 
do you think is the weakest link that perhaps needs the most 
addressing?
    Dr. Stallings. Well, thank you. That is an incredibly 
important question. And not to diminish the importance of any 
of the three of those, because I agree they are all absolutely 
critical.
    But we know from, if you will, the energy balance, 
literature and experience, that we have to deal with the food 
side of it first because you can easily--it is very hard to 
exercise enough to overcome overeating. It is very easy to 
overeat, and just the calories per intake an hour of activity.
    So there are very important things to the physical 
activity, including fitness, as well as burning calories, and 
the evidence supports that some kids learn better in that 
environment.
    Education is very important, but we also know from 
extensive experience that education does not always change 
behavior, and what we have to do is keep working towards that. 
And I will step back now.
    As a pediatrician and a community member, the opportunity 
to make the school a very special place for food--I mean, it is 
a special place for learning, but the idea of making it a 
special place for what food is available in that environment, 
which does represent about 50 percent of eating opportunities, 
is I think the keystone. That is not to detract from the 
importance of physical activity, which has been well 
demonstrated, and absolutely nutrition continues to need to be 
a part of the curriculum.
    But we can't rely on those other two pieces to be effective 
against, really, overeating and obesity, and we know that from 
studies in children and adults of all ages.
    Mr. Tonko. Thank you.
    Anyone else want to comment on that one?
    Mr. Felton. Well, sir, I guess our concern is that, while 
schools provide a great opportunity for partnerships, that we 
all recognize that, again, it is the education--it is the 
commitment of families and communities to support that so 
that--we, too, believe that nutrition has to be part of our 
school day, and improved nutrition is very, very important. We 
want to be sure that whatever happens in the day is also 
accompanied and supported by the total life and lifestyle of 
our children, or else it just simply will not work.
    Mr. Tonko. Were you going to say something else, Doctor?
    Dr. Stallings. Just to follow up on that, again recognizing 
that it is a complex environment, but there are virtually no 
other opportunities where we could impact helpful eating at 
that level. And that doesn't in any--50 percent of the food or 
the eating opportunity.
    And that doesn't in any way limit the other opportunities 
outside the school environment where the parents are really 
often at the child's side or making decisions about what to 
bring into the house or the food eating. So, again, as a 
pediatrician and an advocate, I would say that we have a more 
unique opportunity in school, but it is meant no ways to limit 
the freedom and the opportunities for families to make other 
decisions in other settings.
    Families are not aware often of what their children are 
eating in schools. They are often not aware of what is in the 
vending machines or the snack bar. And if you go to the 
evidence that was prepared in that first report about 
competitive foods, I think that walks through the behavioral 
issues you brought up, that this is an opportunity, but it is 
in no way meant to take away the authority of the parents or 
those many, many other opportunities at nights and on weekends 
and holidays.
    Thank you.
    Mr. Tonko. If I could just toss a final question out there 
in terms of how all of this relates to agriculture, I know 
there have been some programs--I have assisted some in the 
state of New York--where we take perhaps damaged produce that 
may not be marketable, but it is certainly edible.
    Is there a way to stretch the opportunities here to reach 
our schools with locally produced so that we are addressing the 
energy delta, the energy input that is so important these days 
because of the energy it takes to import or ship in from other 
regions of the country our food sources? Is there a way to 
stretch the opportunity with our Ag community to provide 
wholesome nutrition for our children?
    Dr. Stallings. Well, I will be happy to start on that.
    One of the things that, again, our committee has learned a 
lot about is the commodity foods programs and the Department of 
Defense fruits and vegetable program, and I would like to 
compliment our public servants. In most of what we thought of 
as the commodity foods program when all of us were growing up 
is substantially different.
    And I believe that we have partners there that can address 
some of the very things you are talking about, because their 
purchasing power and their transportation opportunities are 
really vast. So as we have gone about collecting information, I 
believe that is an opportunity as well, that the USDA, and 
particularly the commodities group, are very interested in 
being a part of the success.
    The other issues that you bring up are ones from a 
nutrition science point of view, not so much the ecology and 
the energy, transportation energy. What we have been learning 
is, yes, local and fresh and involvement with the community is 
a wonderful part of it, but most of us live where that would 
really severe--when things are in season, those are great 
partnerships.
    But I also want to mention the strength of the--if you 
will, the whole agricultural industry now, that the fruits and 
vegetables that are picked at prime time and frozen and canned 
that then are in compliance with USDA regulations to be a part 
of the school breakfast and lunch program are really very high 
quality products.
    And so, if you had asked some of us nutritionists, again, 
20 years ago, we would have said, ``Oh, fresh fruits and 
vegetables sitting out on the stand are always the most 
nutritious.'' We have come to understand that is not always the 
case.
    So I would like for the committee to bear in mind these 
other opportunities and purchases and money-saving 
opportunities are all potentially part of the solution, as 
well. And the quality of the foods served in school is and 
should be, again with this backdrop of specifications for 
purchase, should be as high a quality as we would have in our 
homes than in any other setting, which is what we would want 
for schools.
    Mr. Tonko. Thank you.
    Mr. Felton. I agree generally with that statement. Again, 
our concern is we would not want a one-size-fits-all approach, 
because, again, in our rural communities and some of our 
suburban communities, it may be an appropriate way to do that, 
which may be inconsistent with some of our larger school 
districts that provide--that do central food preparation.
    But I think the point is we should all be concerned with 
the quality of food and ensure that there are options to local 
school districts and local schools in terms of how they are 
able to secure those products.
    Chairwoman McCarthy. Mr. Polis?
    Mr. Tonko. I think the first lady was going to say 
something.
    Chairwoman McCarthy. Oh, I am sorry.
    Ms. Paterson. I just wanted to mention that, at the 
executive mansion in Albany, New York, we are going to start 
inviting school kids to come to the mansion and have the 
executive chef there teach them how to make some healthy meals. 
We also have a garden at the mansion where, every year, we 
invite children to come in and help us plant fruits and 
vegetables and herbs at the mansion.
    Chairwoman McCarthy. Speaking as a gardener, I will tell 
you, if you get kids involved in gardening and growing their 
vegetables, it is a lot easier to get them to eat them.
    Mr. Tonko. Yes. I think, Madam Chair, too, if I might just 
conclude with this, it is important for us to not deal just in 
silos, because we are dealing with wonderful dynamics here for 
our children and across-the-board nutrition, but there is that 
energy quotient that is involved, too.
    And if we can begin to do smarter things as energy 
consumers by buying locally and buying fresh, we can 
incorporate several dynamics of policy into one package. And 
that big-picture view I think is so critically important to 
progressive policy development.
    Chairwoman McCarthy. And we are probably going to go on to 
a second round, so what I am--because we were so late in 
staying, we understand time restraints and everything else. We 
are very used to that, and especially for the first lady.
    If you need to leave, or anyone needs to leave, we 
understand that. You are not insulting us at all. But we do 
have more questions, and if you would like to stay, we would 
love to ask them.
    Mr. Polis?
    Mr. Polis. Thank you, Madam Chair.
    I represent the state of Colorado, which has some of the 
lowest obesity rates in the country. But like a lot of other 
states, it is heading in the wrong direction.
    Today, more than one in 10 Colorado children is obese. And 
this not only affects their health, but very important to us as 
a committee and our Congress, it affects their achievement and 
their education. A study of fifth graders found that those with 
a poor diet, too much fat and refined sugar and not enough 
fruits, vegetables and whole grains, were from 26 to 41 percent 
more likely to fail standardized reading and writing tests than 
their peers who consumed healthier diets.
    Healthy habits start early in life, and the public 
overwhelmingly supports immediate action to reverse the obesity 
trend. According to a poll of people in Colorado by the 
Colorado Health Foundation, 86 percent of Coloradoans support 
requiring 30 minutes of physical education each day in our 
schools even if it takes time away from other subjects, and 82 
percent support efforts to remove snacks of low nutritional 
value from snack vending machines, an issue that I worked on 
while I was on the state Board of Education in Colorado, and 
replacing them with healthy snacks.
    My first question is for Ms. Copperman. What are some of 
the challenges that you found in creating and implementing 
strong wellness policies throughout the United States? What are 
some of the biggest challenges to both creating those policies 
as well as successfully implementing them?
    Ms. Copperman. Okay. I can speak to the New York state 
experience in conjunction with the audit that was done by the 
state controller, looking at physical education, now nutrition, 
is that there seems to be a lack of monitoring and evaluation, 
and that is what came out of the physical education 
requirements, that the requirements were there, but that the 
monitoring wasn't there to kind of look and see that the 
legislation that was already enacted was actually being 
followed.
    And I think with the wellness policies, it tends to be the 
same thing, is that if schools aren't meeting their physical 
education, then when you go to the wellness policies, they have 
these policies, and they sat down and they have developed them, 
but there has really not been a way of looking at the 
implementation and the monitoring of the goals and whether 
these goals are actually being successful in what they are 
doing.
    And I can say that when we went to the school districts and 
asked them what would you like to do to prevent obesity in 
schools, we gave them a choice. And they felt that there was a 
support somewhat for nutrition. They felt that there could be 
more education support and, again, monitoring and following.
    But they felt that the physical activity goals were 
completely unsupported because they weren't meeting the 
physical education requirements. And that is why they asked us 
to focus on physical activity.
    One of the things we did is that we understand that 
physical activity--and as a registered dietician by training, 
physical activity goes hand-in-hand with nutrition. So what we 
tried to do was to kind of take nutrition ideas and integrate 
them with physical activity with curriculum subjects. And what 
found is, by doing that, that is what helped us overcome the 
barrier of getting it going and implement it in the classroom, 
which was the major problem that the schools had.
    Mr. Polis. And that kind of leads into my second question. 
With all the interest to improve the school food environment, 
clearly nutrition education is part of that, to really 
integrate nutrition education into the classroom and the entire 
campus, whether it is in the cafeteria or the history class or 
wherever appropriate.
    And it seems to me that this should be part of the 
education reform movement, more broadly, and I am wondering 
what ideas you might have about how we can approach and impress 
others with the merits of nutrition education from a broader 
lens in these systemic reform discussions.
    Ms. Copperman. Yes. I think several things are important.
    Number one, the school environment is a place where 
children spend 10 months out of the year, so all their 
formative years are basically spent more time in school than at 
home. So I think it offers us a wonderful opportunity to 
provide education.
    I think what winds up happening is that it becomes not 
coordinated, that there aren't the resources or the national 
support that enabled the schools to take a program that has 
best practices and shown its been successful and actually 
implement it into the classrooms and into the cafeteria and 
into the physical education classes and into the PTA and into 
the whole environment of the school.
    So I think what is needed is really looking at best 
practices and offering the schools programs that work, because 
there are a lot of programs that are out there and that have 
been proposed by different groups, but when you go to evaluate 
what is needed--and I think that is the second part of it, is 
that there needs to be some sort of support that allows the 
schools the awareness to the program and the implementation 
that is within budget.
    We would all like to see the Cadillacs and very expensive 
programs come in, but the schools really cannot afford that. So 
I think it needs to be what we found in Activity Works--
targeted, simple, economical and utilizing what the schools 
have. So I think those are the nutrition education programs 
that would be effective.
    Mr. Polis. Thank you.
    I have one more question, Madam Chair, if I may, for Mr. 
Felton.
    According to the Colorado Children's Campaign survey, which 
is a nonprofit focused on education policy in Colorado, our 
current lieutenant governor is former executive director of 
that organization, they did a survey of 22 of our largest 
school districts in Colorado. Only three of them require 
nutritional standards for all school snacks for children.
    So given that reality in my state, and also the reality 
nationally, why do you think school districts will remove junk 
foods from schools without federal or state legislation 
requiring that they meet nutritional standards?
    Mr. Felton. Well, I think our concern is that, as 
communities are more engaged and understand the value of 
nutrition, that they are certainly willing to move toward that 
direction. And it is not that any school district or school 
wants to say they don't want their children to be knowledgeable 
about nutrition or that they want to have healthy foods within 
that school day.
    But I think that if we look at schools, its primary role, 
of course as we know, is to deliver quality education. But 
there is a business aspect of schools, and they need to be sure 
that they can balance all of these requirements.
    If we look at, for example, how we evaluate school 
performance, we are looking primarily at our students doing 
well in three areas. When schools and school districts have 
very limited budgets, that is where they focus their attention.
    So I don't think it is an issue of not wanting to meet 
standards. The question is, is it realistic in every situation. 
And again, our concern is that, if there is a federal law that 
provides for some mandated standards, that there is at least 
some relief out so that we understand, in some cases where it 
doesn't work, there is another approach without now being 
labeled as not in compliance and, therefore, a poor school.
    Mr. Polis. Yes. And I would just submit that not only in 
Colorado but in other states, it simply hasn't happened at the 
district level, which I think is why there is a very legitimate 
discussion about these kinds of guidelines at the federal level 
and, indeed, in many states as well.
    Thank you, Madam Chair.
    Chairwoman McCarthy. Mr. Platts?
    Mr. Platts. Thank you, Madam Chair.
    Mr. Felton, I would maybe pick up there a little bit. In 
your testimony, you talked about the concern that School Board 
Association has about restrictions could reduce revenues to 
schools that help pay for activities, extracurricular 
activities.
    In our colleague's testimony at the beginning, she talked 
about a study done by the CDC and Department of Agriculture 
that showed that revenues actually went up as schools engaged 
in providing healthier opportunities as opposed to losing 
revenues. Have you, the School Board Association, looked at 
that study? Are you familiar with it and have a response 
regarding the findings of that study?
    Mr. Felton. Yes, sir. We are familiar with the study.
    For the most part, the focus has been on do schools lose 
money in terms of their vending machines, and there has been 
enough data, mixed reporting, but certainly there isn't the 
significant loss in revenues in vending machines. Our concern 
is that the proposed legislation would seek to restrict all 
foods sold on any related school activity.
    So, for example, if we think about as--as I said earlier, 
the local field trip to New York and the community is able to 
get a sponsor who will provide boxed lunches for those 
students. If those boxed lunches aren't in compliance with the 
new standards of foods served and sold during the school day, 
then local school districts, for example, could find themselves 
potentially in litigation because they have not complied. Or 
for example----
    Mr. Platts. But there would be nothing prohibiting the 
school from saying, ``Hey, we appreciate that support. Here are 
the guidelines, if you can work with us.''
    Mr. Felton. Oh, certainly. Certainly.
    Mr. Platts. Right. And I would say, I am not convinced--and 
I haven't taken a position on Lynn's legislation because I am 
torn between local control school districts and elected school 
Board members in Pennsylvania having a say versus me telling 
them what to have to do on this issue.
    But there do seem to be some ways you could address that 
concern and still comply with the law if it was adopted.
    Mr. Felton. Oh, certainly. And again, many states 
voluntarily are moving toward establishing their own standards 
that are very, very strong because they have the commitment of 
local communities that are willing to say, ``Not only are we 
committed to stronger nutrition policies, we are willing to pay 
for whatever is necessary to ensure that,'' as we heard 
earlier, ``it is properly implemented and evaluated.'' And 
where communities have that kind of support, it works.
    What our fear is that, if it simply becomes another federal 
mandate without fully understanding all the operational aspects 
within a local community and school district, then we could 
find ourselves having some unintended consequences.
    Ms. Ritchie. If I may add just a minute, I am from the 
Center for Weight and Health who did one of those studies that 
was mentioned earlier. And what we actually found--and we 
didn't look at field trips--but foods sold not only in vending 
but in all other aspects besides the school meal and the school 
breakfast, so that could include a la carte foods----
    Mr. Platts. Would that include, like, football game sales, 
that type of thing, too?
    Ms. Ritchie. It did not include football game sales, 
because those are outside of the school day. But anything sold 
within the school day, including vending but not exclusively of 
vending, what we found is that, when you limit those what we 
call competitive foods, the worry was that then there would be 
a lot less money coming into the school and into food service 
and into the clubs, et cetera, that use those foods for 
fundraising.
    What they found was that the bottom line in terms of the 
school was actually a net positive because more kids 
participated in the school meal. And when more kids participate 
in the school meal, the revenues go up. So, like I said, we 
didn't look at fundraising in terms of outside of the school 
day, and we didn't look at field trips and that sort of thing.
    But in the school day, the net result is that schools are 
not losing money, at least in our study, that they are staying 
in the red. In fact, they are getting more in the red because 
of the increase in the school meal participation.
    Mr. Platts. Yes. I think one of the--if children and 
adults, if we provide healthy alternatives, it is all the more 
likely we will embrace them.
    I am a perfect example. I am a sweet tooth fanatic, and my 
wife this morning when I left the house, said about 10 of 5 to 
be down here early for a school group. I made a point of 
grabbing some celery that she had soaking in water to give it a 
little crisper that I ate on my drive down here.
    I commute from my district in Pennsylvania each day, and so 
I was eating some delicious celery because my wife made it 
available and right there waiting. So I opened that fridge, I 
saw it--and crunchy, yes.
    Ms. Ritchie. She makes you eat celery, and she breastfeeds. 
What a perfect wife.
    Mr. Platts. Oh, my wife puts me to shame, as my staff will 
tell you, when it comes to fitness and healthy eating.
    Ms. Ritchie. I was also going to add, and I am happy to 
share this with the committee at a later date, but we have at 
the Center for Weight and Health done a very comprehensive 
review of what works best across all different sectors, so not 
only in the school, not only in programs like WIC, but at 
worksites, at community-based interventions, looking at the 
real science as opposed to what people think or hypothesizing 
might happen.
    And while, of course, I am a researcher, so I always say we 
need more studies to base our conclusions upon, what we did 
come to conclude, as a base of, again, looking at all of these 
different sectors, was that it is the marriage between the 
education and the policy and environmental supports that really 
make the difference.
    So as Nancy Copperman was saying, when you integrate the 
education with the policy and environmental supports is when 
you really see change. So you were asking whether it is the 
education or the PE or the nutrition.
    It is really both, intertwined, integrated and coordinated 
so that a child can go to class and hear the message, ``I need 
to eat more fruits and vegetables,'' and then go to the 
cafeteria and see a fresh salad bar with lots of fruits and 
vegetables.
    When those messages aren't coordinated is when we get into 
trouble, and then the nutrition education by itself doesn't 
work. The policy isn't so helpful. But when they are combined 
is----
    Mr. Platts. Yes. I saw that--and I will wrap up here 
quickly--I represent a lot of the apple orchards, and promoting 
apples as a healthy snack. And there is an annual apple 
promotion week where, in schools, they do the Great Apple 
Crunch program, I think is what it is called.
    I guest served in the cafeteria that week, and one of the 
options was fresh apple slices. And it was wonderful to see the 
kids enjoying them, and like, ``I will take his if he doesn't 
want them.'' It is promoting and tying in--they did a program 
in school tied into the product being offered, so it was 
education along with the opportunity for the kids to have that 
as part of lunch.
    Ms. Ritchie. Right. Kids really learn by experiential 
opportunities. And I was going to add, we also have a 
reviewed--not that we did this one, but one that I have that 
shows a farm-to-school movement. And again, we don't have a lot 
of studies on it, but it is showing that it does increase 
childrens' fruits and vegetables intake, and that combination 
of being exposed to local produce plus having the experience 
with it is probably what is contributing to that success.
    And I am very excited about the new WIC food package and 
the new alignment with the education, because that is exactly 
what we are talking about, providing fresh fruits and 
vegetables, whole grains, all of the things that we know people 
should be eating, along with the educational part. So we are 
really excited about evaluating that in the upcoming year and 
years.
    Mr. Platts. And if I could, Madam Chair, one final comment 
about the importance of this issue, because our focus has been 
about kids. But one of my colleagues I think earlier--it might 
have been Mr. Castle--mentioned about how kids end up teaching 
adults, and he used the seat belt example.
    I am a perfect example that--me learning from my kids, 
because one of the things my children do get snacks, but thanks 
to my wife, healthier more so than my eating habits of the 
past. But one thing they still don't have at age 10 and 12 is 
they still don't get soda at all, and never have. And I used to 
drink about a case of soda a week. And sitting at the dinner 
table, with all my commuting, I was always drinking the 
caffeine, and not good soda--or not that there is necessarily 
good or bad.
    But sitting at the dinner table, I had a glass of soda. And 
my then-4\1/2\, 5-year-old, said, ``Well, Dad, if it is bad for 
us, why do you drink so much?'' That was about 4\1/2\, 5 years 
ago--well, no, almost 6 years now, and I went cold turkey that 
week. And so my kids taught me, by them being healthy, they 
ended up influencing me.
    So what you are doing won't just benefit the children, as 
we know from seat belts. It will ultimately benefit the 
parents, too, because the kids developing those healthy eating 
habits can help their parents complement what they are doing 
with their children. So all the more how important your work 
is, and thank you for all of your testimonies and work, day in 
and day out.
    Thank you, Madam Chair.
    Ms. Ritchie. May I also point out, you could see the 
opposite happen. So no, we no longer have soda in California 
schools, but I have talked to many, many parents who said, 
``Well, my kids get soda at school, so it must be good for 
you.'' So that is an example of how the school can set a tone 
for both positive and not-so-positive education around foods.
    Mr. Felton. And again, from our perspective, we agree that 
schools provide that opportunity. Our concern is that we must 
look at not only the school environment, but the work 
environment and what happens in the community. And together, we 
can address this issue.
    Mr. Platts. I have already used up my time.
    Chairwoman McCarthy. Well, no. We are actually very lucky 
on this committee because we both tend to agree that we would 
like to expand, if possible, among just the usual 5 minutes. I 
feel bad when people travel from all over the country to sit 
down in front of us for 5 minutes, and then it is over.
    So, being that no one here seems to be complaining about 
leaving--we are going to shut it up soon, though, because we 
are going to have votes again.
    What I would like to--and I know my colleague wants to ask 
another question--I happen to believe very strongly that, when 
I think about what has been mandated in some states or 
whatever, children wearing helmets when they ride bicycles or 
roller skating, teaching children not to smoke, let me tell 
you, they have the most powerful effect on adults.
    If I get on a bicycle with my grandchildren, ``Where is 
your helmet?'' Now, I never wore a helmet in my life. I had to 
go out and buy a helmet, mainly because they were right.
    And I think it is going to be the same with nutrition. If 
we can bring good nutrition into the schools--and I don't 
particularly like any kind of unfunded mandate to go down to 
anywhere. I believe in--I am looking at this as a nurse--we 
need to look at our schoolchildren, which unfortunately, across 
this nation, they are overweight.
    This has become a country--and our life differences--they 
are different. When we were young, you were out of the house at 
9:00 a.m., and your mom said, ``Be back by dinner.''
    Now, it was different days. I agree with that. But we are 
competing now with kids watching TV, kids being on their 
computers, the games that they are on, so they are spending a 
lot of time inside.
    And I think that that is not the best and healthiest thing 
in the world to do. So what we are trying to do, on a number of 
ways, is educate the children on nutrition, get them more 
active, into physical activity, and that brings me up to a 
question, and I will throw it out there.
    We have been talking about a lot of the children, but no 
one is talking about those children with special needs, those 
children that are in a wheelchair. They can do exercise, but 
they also need good nutrition. So if you have any data on any 
of the work that you have done with children with special 
needs, I think that the committee needs to hear about that 
also.
    Dr. Stallings. Well, let me speak to that a little bit. In 
fact, one of the areas that I have worked on for years is 
children with cerebral palsy. And across the spectrum, from 
mildly affected to quite severely affected for ambulation and 
cognitive issues.
    And I think you are correct, in the issues in those 
children, because they are not running around and riding their 
bike and that sort of thing, there is a decrease in total 
energy needs. And the milder the defect, probably the more we 
will see that difference.
    In children who are severely affected, the interesting 
thing is they are--feeding those children is so difficult that 
some of the most striking examples of malnutrition and under-
nutrition are children with cerebral palsy who have spastic 
quadriplegia and that sort of thing. So part of the challenge 
in a school setting is now often you have a very big spectrum 
of children with special needs.
    I think the schools, again, with some of the 
recommendations, because there will be a section on children 
with special needs, the focus, as you mentioned, really is 
around calories. Most of the other nutritional needs don't 
change very much as long as you adjust them for body size. So 
if they are overweight, we know a bit about that, but certainly 
if they are underweight.
    Many of the other children with special needs in a school 
setting are children with medical problems that aren't the same 
as the visible disabilities. And for those children in the 
current environment, the system of having them known by the 
school and by the food service people is part of the program. 
Now, whether they are able to meet their needs as well with the 
current recommendations, I don't think we have any evidence 
for.
    So, in summary, the energy issue is a big deal, and the 
physical activity component, like you said, we have learned 
from both children and from the elderly the kind of physical 
activity you can do from sitting and that sort of thing. Those 
are all areas we can improve.
    But I think within the food, school lunch and breakfast 
program, in the professional oversight that is there and the 
commitment of the teams you have already got on the ground, as 
long as we have good clarity about what the conditions are, it 
should go more directly to the amount of food, which is 
calories, and then the texture or special feedings. And as long 
as we make the commitment that those children will be educated 
in those school buildings, the issue around food and physical 
activity should be paired with that.
    Ms. Copperman. I would just like to add a couple of 
comments.
    In our work with Activity Works, it wasn't designed 
specifically for children with special needs, but it has been 
used in classrooms with children with severe learning 
disabilities. And it was quite interesting to see that the 
teacher's feedback felt that the kids were moving, exercising 
and learning, and it increased their listening skills. And the 
repetition--they used it differently--was very helpful, and 
they felt it would work.
    I do have, in one of my schools, a child who is in a 
wheelchair. And this child had a mat set up in the back of the 
class. And when Activity Works comes on, he goes down on the 
mat and he does all the exercises that the kids are doing from 
the upper body, and it is just accepted and something that they 
do. And in the audits for New York state physical education 
requirements, they found that the one thing that they were 
meeting was really providing physical education for this 
population.
    In my practice as a clinical nutritionist dealing with 
overweight and obese children for 20 years, I can tell you that 
my interaction with schools dealing with children that were 
overweight and obese and educating the schools on what is 
appropriate was very successful in helping those children do 
well in school, change the nutrition that they were receiving 
in school.
    Many times when you have a child with special needs, the 
idea is that food is love and that over-feeding is doing the 
children a favor. And that was one of the things that I was 
able to do, was to educate and work with teachers and looking 
at foods as rewards in special needs schools and changing 
things and actually making the kids healthier and actually 
functioning better and being able to do the activity.
    Another case would be children that have psychological 
issues that are required to be on medications that can make 
them gain 20 to 30 pounds in a year. and they need these 
medications, otherwise they can't function. So what do we do 
with this population, which is increasing? And again, working 
with the families and using nutrition and physical education 
strategies to help change and work with the school.
    So I think that it is a partnership of using nutrition 
professionals and using physical therapist and bringing the 
team together to deal with this in setting up program and 
awareness in the schools that they can help. And I have seen 
that been successful in my career and in working with Activity 
Works and seeing how they are increasing their activity.
    Mr. Felton. We think that, obviously, schools have come a 
long way in terms of both the academic preparation for students 
with disabilities and providing free appropriate education, as 
well as dealing with other kinds of services like nutrition.
    So I don't think it is an issue of, ``Well, we will not 
deal with these students because we aren't aware.'' I think as 
Ms. Copperman has pointed out, there is the opportunity to 
collaborate on what is needed for each child. And even for 
those students that aren't formally identified as being 
disabled, there is a wide, broad range of skill sets and 
learning that takes place.
    So as we all know, it is a very, very complex issue. The 
key for us is that the political will, both at the community 
level, state and federal level to do that and to--the resources 
and the appropriate development for teachers and other staff 
officials so that it works as a total program and not viewed as 
add-on.
    Chairwoman McCarthy. Mr. Tonko?
    Mr. Tonko. (OFF MIKE)
    Chairwoman McCarthy. Oh, I am sorry. Did someone else want 
to answer?
    Ms. Byrnes. I just wanted--since I haven't spoken for a 
while, I just--but I just wanted to reiterate what you were 
saying about the children. And part of being a nurse as well, I 
realize that we have to start with the children, and then they 
take that information home to their parents. And we also do 
adult wellness in businesses.
    So we have to complete the circle, but never underestimate 
the power of a child and how they can influence parents and 
grandparents.
    Mr. Tonko. Madam Chair, if I might, the craze of late is 
high-energy drinks loaded with caffeine, loaded with sugar, and 
they sound good. They sound harmless. Sound like they are going 
to build up your opportunity to perform.
    What do we need to do? Because so much of this is being 
ingested by the young crowd because they think it is the cool 
thing to do, or a good thing to do. How do we deal with this?
    Dr. Stallings. If I may start, in the report on the 
competitive foods, there is a whole section that looked at 
beverages very systematically. And in that evidence review, if 
you look at caffeine, there--and as, of course, we all know, 
caffeine is a drug. It has physiological impact with heart 
rate, with changes in metabolism, including glucose metabolism. 
And yes, it is performance enhancing. It is a performance-
enhancing drug.
    So I know that in a military setting, they have gone 
through this and found opportunities to use this. And maybe we 
might want our airline pilot to have his caffeine.
    But if you read through the report, I think you will come 
away, after looking at the evidence, that this is a drug. It is 
not appropriate in a school setting. And as the committee 
described, having a performance-enhancing drug in the school 
setting, again, goes against everything we are trying to 
provide there.
    So in that setting, what this committee came out with is 
the beverages that are appropriate in school would not have 
caffeine, would not have any other special enhancements, 
including adding vitamins and minerals, because the committee 
recommended that the focus be on food, and healthful foods and 
beverages, not the idea that you put a vitamin in a sport drink 
or something like that.
    The one other issue about sports drinks being a little 
different from the high-energy, which are really highly 
caffeinated, the evidence, again, supports that, except in very 
special situations where kids are in team sport-type training 
settings in hot environments or very humid environments, there 
is no evidence to support the need for rehydration fluids in 
the school setting in the noncompetitive setting.
    So the idea that you might have sport drinks for the 
varsity teams during practice and performance comes within the 
idea of safety and in the domain of the coach and looking at 
the whole environment.
    The idea of having those beverages in the school during the 
normal day, or in the gym after you have had PE class, again, 
the committee did a lot of work to provide the evidence that 
does not support the necessity of those in that setting. They 
are high in sodium, high in calories, high in caffeine, 
depending on which ones you are looking at. So they may have a 
place in other settings, but the committee would suggest that 
is not the school.
    Mr. Tonko. Well, we are promoting these drinks, and the 
young mentality is just consuming to them.
    Dr. Stallings. Right. And again----
    Mr. Tonko. At a dangerous level.
    Dr. Stallings. But the evidence that has come out with the 
impact of the media and being able to influence food and 
beverage decisions in children as young as 5 and 6 is very, 
very compelling. And so, we know that if kids are exposed to 
that kind of media attention, then it is effective, and they do 
begin to make decisions based on that.
    Ms. Ritchie. Oh, I am sorry. I was just going to add that 
one of the reasons for our recommendation to coordinate the 
nutrition education messages across the federal food programs 
is because of some of what you just brought up, that kids are 
bombarded with messages that tell them to do the opposite thing 
of eating healthy and being physically active.
    The average child sees 5,000 commercials on television a 
day, 90-plus percent of which are for unhealthy foods. We have 
to find ways to counteract that. And I would also add, in 
regards to your discussion about sweetened beverages, that we 
published a book, our center, called ``Obesity: Dietary And 
Developmental Influences,'' which examines all the evidence on 
a lot of dietary factors in terms of which are contributing to 
obesity and which may not be. And sweetened beverages came up 
right at the very top of the list.
    Mr. Tonko. And we are also dealing with the struggle that 
many districts have, where there are enticements to put in 
machines that are selling high sugar in liquid formats through 
drinks, unhealthy snack food, and getting lights on a field, 
bleachers put on a field, athletic fields paid for, and 
everybody is saying, ``Well, it is the resource we get, and we 
need to keep''--what is the cost of doing that into the future, 
when we are growing unhealthy kids? The price tag to society is 
far beyond the benefit, I think, that comes at the beginning. 
So how do we address that?
    Mr. Felton. Well, I think it goes, again, back to what is 
the political will, and----
    Mr. Tonko. Well, political will versus consequences, 
though.
    Mr. Felton. That is true. But 20 years ago, certainly 20 
years ago, we may not have envisioned a smoke-free environment, 
and yet we have in many states now smoke-free environments 
because there was, one, not only the support for incentives to 
move in that direction, but again, the commitment and 
engagement of people who said, ``This is the right thing to 
do.''
    I mean, if you look at--, you look 40 years ago when people 
were throwing trash out the windows on highways, I mean, we 
create a model and we create a value in this country which will 
then drive this behavior. I just think we have to be very, very 
careful.
    Sure, the feds want to push this thing, and it is very, 
very important, but just keep in mind that many local 
communities are working with that to the extent that the feds 
can provide leverage so that states and local communities can 
move at a much more accelerated pace, I think it is very 
important and should not be discounted.
    Mr. Tonko. I hear you, but I think at the same time the 
enticements are pushing us backward--can push us backwards 
rather than move us forward, or even hold us where we are at.
    Ms. Byrnes. I would think this would be a wonderful 
opportunity for school boards to really look at their school 
districts and say exactly what you were saying, is what is more 
important, putting lights on our field or having a third of our 
children being obese?
    And I will tell you, if you put soda in--they wanted to put 
a soda machine in the Health Education Center, and I said 
absolutely not. Absolutely not. So we have water. We have a 
water machine. But unfortunately, it says ``Coke.'' You know, 
the machine says, ``Coke.'' But sometimes you just have to take 
a tough stance.
    Mr. Felton. Well, I think, again, it is ensuring that the 
values of a community are well respected and are influenced so 
that we can have sustained programs, not just the point of the 
Friday night games. At some of our communities, Friday night 
football is a major part of that core society. Now, it is easy 
for us to say, ``Get rid of the Friday night games because we 
don't have bleachers.'' I think that that local community 
ultimately will make that choice about what is best for their 
kids, and they should.
    Chairwoman McCarthy. I am sorry, but I have to call this to 
an end. We have a vote.
    I just want to say that last year, after we had a hearing, 
one of our first hearings on nutrition, we heard from a lot of 
the manufacturers, and they understood that they needed to step 
up to the plate a little bit more.
    Now, with that being said, are they there yet? No. But do 
you notice more of the snacks are now in smaller bags, 100 
calories? So we are getting there.
    It is an education not only of the schools, not only of the 
general public, but also the manufacturers. Hopefully we will 
continue to work with the manufacturing companies. They are 
putting in water into the machines. Airports are carrying more 
and more water.
    Now we have just got to figure out how we are going to 
drink all that water without, unfortunately, too many bottles 
all over the place. New York is going to probably start 
charging 5 cents even now for the water bottles.
    So we have a long way to go, but you know what? We will get 
there.
    I want to thank everybody here for their testimony. We do 
have our work cut out for us. I am going to bypass my closing 
statement, if nobody minds.
    As previously sorted, members will have 14 days to submit 
additional materials for the hearing record. Any member who 
wishes to submit follow-up questions in writing to the witness 
should coordinate with the majority staff within the requested 
time.
    Without objection, this hearing is adjourned.
    [Additional submissions of Mrs. McCarthy follow:]

   Prepared Statement of Laurie A. Westley, Senior Vice President of 
Public Policy, Advocacy, and the Research Institute, Girl Scouts of the 
                                  USA

    Girl Scouts of the USA respectfully submits this testimony to the 
Subcommittee on Healthy Families and Communities of the House Education 
and Labor Committee.
Girl Scouts and Healthy Living
    Girl Scouts is the world's preeminent organization dedicated to the 
leadership development of girls, serving nearly 3 million girl members 
in every corner of the United States, Puerto Rico, the Virgin Islands, 
and almost 100 countries worldwide. Throughout our 97-year history, 
Girl Scouts has had a long standing commitment to the well-being of 
girls and continues to be an authority on their healthy growth and 
development. From our healthy living programming and a historic 
emphasis on health in the Girl Scout experience, girls are educated and 
empowered to take action to strengthen their physical and emotional 
well-being and positively impact their communities and the world. Girl 
Scouts is deeply invested in improving the health of our country's 
children and adds a unique voice and proven solutions for Congress to 
consider while forming policies to address childhood obesity and 
improve our youth's physical and emotional health.
    The Girl Scout Research Institute's original research report, The 
New Normal? What Girls Say About Healthy Living, provides what is too 
often missing from the dialogue surrounding nutrition and childhood 
obesity: the voices of girls and youth who are directly affected by 
this health crisis. This research offers insight into how America's 
girls view their own health and healthy living. We found that girls 
believe being healthy combines good nutrition and physical fitness with 
emotional and social well-being. Most importantly, we found that 
without including emotional wellness in exercise and nutrition 
programs, these programs will not work well for girls.
Incorporating Girls' Voices Into Policy
    The New Normal? What Girls Say About Healthy Living, sheds light on 
the childhood obesity crisis by asking girls directly how they define 
health and what motivates them to lead healthier lifestyles. The report 
combined focus group research with surveys of more than 2,000 eight- to 
seventeen-year-old girls. Girls expressed that their emotional and 
social wellness is equally important to their physical health. For 
girls, being healthy is more than just eating right and exercising; it 
is also includes feeling good about oneself, being supported by friends 
and family, and appearing ``normal.'' The study found that girls define 
health holistically, and our nation needs to take a comprehensive 
approach to healthy living programs and policies if we want them to 
resonate well with girls.
    Emotional wellness, which includes self-esteem and a girl's body 
image, plays a critical role in girls' attitudes about diet and 
exercise. According to The New Normal? What Girls Say About Healthy 
Living, for girls, being healthy has more to do with appearing 
``normal'' and feeling accepted rather than maintaining good diet and 
exercise habits.\1\ Moreover, physical appearance is of greater concern 
to girls than their nutrition or how much they exercise.\2\ If our 
country wants to end the childhood obesity crisis, we should form 
policies and programs that not only encourage good physical health, but 
emotional well-being as well. Girl Scouts has learned that 
comprehensive approaches are the most effective with helping girls 
develop healthy nutrition and exercise habits. We recommend that 
nutrition programs should include a focus on emotional wellness that 
empowers girls and all youth to develop self-esteem, a positive body 
image, healthy eating and exercise habits, and an overall healthier 
lifestyle.
    For girls, health is also about being supported by their peers and 
family. Relationships are crucial to girls' physical and emotional 
health. The Girl Scout Research Institute's original research report, 
Feeling Safe: What Girls Say, found that emotional safety is a top 
concern for girls. Girls feel the safest and most confident when they 
have strong relationships with their peers who they can trust.\3\ 
Relational aggression, or emotional bullying, damages girls' emotional 
and physical health and safety. Efforts to improve girls' health should 
include the prevention of relational aggression, since healthy 
relationships are crucial to girls' physical and emotional well-being.
    The New Normal? What Girls Say About Healthy Living also highlights 
the important role that adults, in particular mothers, play in shaping 
girls' self-esteem and their nutrition and exercise habits. Girls cite 
their mothers not only as role models but also as leading sources of 
nutritional information and emotional reinforcement. A mother's weight, 
body image, and health habits are strong indicators of whether or not 
her daughter is overweight, physically active, satisfied with her body, 
and looks to her mother for advice on health living.\4\ In general, 
having obese parents significantly increases a child's risk of being 
obese. One study suggests that children of obese mothers are fifteen 
times more likely to be obese by age six than children with normal 
weight mothers.\5\ This strong correlation between a daughter's health 
and her mother's health habits indicates the powerful influence mothers 
have over their daughters' emotional and physical health. Efforts to 
inspire and motivate girls to make healthier choices should focus on 
educating parents, teachers, and adult volunteers on how to encourage 
youth to develop healthier lifestyles, as well as teach adults that 
their choices model behaviors for how to live a healthy life.
    Finally, our original research shows that the most effective 
policies and programs give health social relevance, which requires 
framing healthy living in terms that are socially significant to girls 
of different ages, ethnicities, and backgrounds. Hispanic, African 
American, and Native American children are disproportionately affected 
by obesity when compared to the general population. The highest 
prevalence of obesity among girls is found among African American and 
Latina girls.\6\ Children from low-income backgrounds are also at a 
higher risk for becoming obese; for girls of all ages, obesity is 
highest at the lowest income levels and drops precipitously at the 
highest income levels.\7\ Policy solutions should be culturally 
competent and built upon the different needs of children from all 
backgrounds if we truly want to improve all children's health.
Conclusions
    Any reframing or redefining of health needs, including nutrition 
and physical activity policies, will be most effective if the policies 
focus on the positive emotional outcomes, such as forming healthy 
relationships, building strong self-esteem, and developing a positive 
body image, that are likely to result from comprehensive, healthy 
behavior, rather than strictly focusing on maintaining normal weight 
and eating nourishing food. According to The New Normal? What Girls Say 
About Healthy Living, a strict focus on physical health does not 
resonate with girls. Policies that acknowledge the importance of 
emotional wellness and incorporate emotional health in nutrition and 
exercise programs will be the most successful among girls and all 
youth.
    Girl Scouts strongly supports H.R. 2276, The Improved Nutrition and 
Physical Activity Act or IMPACT Act, because it meets a critical need 
for a comprehensive approach to obesity and eating disorder prevention 
and improving children's emotional and physical health. This 
legislation is taking groundbreaking steps by recognizing that youth, 
especially girls, view health holistically. It also promotes cross-
sector collaboration among schools, health professionals, and youth-
serving organizations, such as the Girl Scouts. We greatly encourage 
the members of the Subcommittee to partner with Representatives Nita 
Lowey and Mary Bono Mack to support this legislation that will provide 
invaluable resources for communities to work together to improve 
children's nutrition, physical activity, and emotional wellness.
    Girl Scouts has a crucial role to play in ensuring the needs of 
girls are addressed in policy solutions. We are a powerful community-
building tool, and our research and programming offer proven solutions 
towards promoting healthy living. As such, we seek to partner with the 
Subcommittee in the future as you develop policies that will build a 
generation of healthy girls and youth. Listening to the voices of girls 
and what they have to say about healthy living can inform the programs, 
policies, and messages that touch their lives. Only by engaging girls 
in the process do we ensure that today's girls will grow into 
tomorrow's healthy women. Girl Scouts thanks the Subcommittee for its 
leadership in examining this important issue and including our 
statement in the record.

                                ENDNOTES

    \1\ Judy Schoenberg, Kimberlee Salmond, and Paula Fleshman, The New 
Normal? What Girls Say About Healthy Living, Girl Scout Research 
Institute (New York, NY: Girl Scouts of the USA, 2006).
    \2\ ``Health Status--Adolescents.'' Child Health USA 2003. 2003 
HRSA Maternal and Child Health Bureau. Accessed 13 June 2005. 
http:www.mchb.hrsa.gov/chusa03/pages/status--adolescents.htm
    \3\ Judy Schoenberg, Toija Riggins, and Kimberlee Salmond, Feeling 
Safe: What Girls Say, Girl Scout Research Institute (New York, NY: Girl 
Scouts of the USA, 2003).
    \4\ Judy Schoenberg, Kimberlee Salmond, and Paula Fleshman, The New 
Normal? What Girls Say About Healthy Living, Girl Scout Research 
Institute (New York, NY: Girl Scouts of the USA, 2006).
    \5\ Whitaker, R. et al. ``Predicting Obesity in Young Adulthood 
from Childhood and Parental Obesity,'' New England Journal of Medicine, 
vol. 337, No. 13. September 25, 1997. Berkowitz, R. ``Growth of 
Children at High Risk of Obesity during the First Six Years of Life: 
Implications for Prevention,'' American Journal of Clinical Nutrition, 
vol. 81, No. 1. January 2005.
    \6\ Judy Schoenberg, Kimberlee Salmond, and Paula Fleshman, 
Weighing In: Helping Girls Be Healthy Today, Healthy Tomorrow. Girl 
Scout Research Institute (New York, NY: Girl Scouts of the USA, 2004).
    \7\ Girl Scout Research Institute. What Girls Say: Healthy Living 
Inside and Out, Integrated Report of Qualitative and Quantitative 
Findings. (New York, NY: Girl Scouts of the USA, November 2005).
                                 ______
                                 
    [The statement of Mr. Braley follows:]

    Prepared Statement of Hon. Bruce L. Braley, a Representative in 
                    Congress From the State of Iowa

    Chairwoman McCarthy, I rise today to discuss and urge support for a 
bill that I recently introduced, House Resolution 2322, the Healthy 
Food Choices for Kids Act. I strongly urge the Education and Labor 
Committee to consider including my legislation within the 
reauthorization of the Child Nutrition Programs and the National School 
Lunch Act. My bill would set up a Pilot Program that would be available 
to 100 schools (10 schools in each of 10 states). These schools would 
receive funding in order to meet three requirements:
    1. The schools would be required to post nutritional information on 
the food items served in their school cafeterias.
    2. The schools would be required to develop and implement a school 
nutrition awareness program to teach children how to make healthy food 
choices.
    3. The schools would be required to consult with a Registered 
Dietitian, Nutritionist, or School Nutrition Specialist at least once a 
year.
    My legislation would also include an evaluation which would be 
reported to the House Education and Labor Committee. The evaluation 
would report on the successes and challenges of the program. I believe 
my legislation would be an excellent opportunity to test the idea of 
labeling the foods served in schools with nutritional information.
    I also believe that Iowa would be a perfect state to test this 
idea. There are at least 3 schools in Iowa that are already doing some 
form of nutritional labeling of the foods they serve in their schools. 
With this statement I have included two examples of current school food 
labeling already being done in Iowa. One example comes from Dubuque, 
Iowa and the other comes from Cedar Falls, Iowa. My bill requires that 
at least 3 schools in each state must already be providing nutritional 
content information for the foods served in the school cafeteria. This 
would make Iowa an excellent choice as one of the 10 states to receive 
this Pilot as they already fulfill this requirement.
    In addition, my legislation would require that the Secretary of 
Agriculture choose states for this pilot program with a sufficient 
number of rural schools. As a mostly rural state, Iowa would fit this 
criteria well. By implementing this pilot program in a state like Iowa, 
the Secretary will have the opportunity to thoroughly evaluate how this 
program works in both rural and urban schools, which could provide 
useful information towards our goal of increasing children's nutrition 
awareness nationwide.
    I urge the Education and Labor Committee to consider including H.R. 
2322, the Healthy Food Choices for Kids Act in the upcoming 
reauthorization of the School Lunch Act. This legislation will create a 
new opportunity in the continuing effort to fight childhood obesity.
                                 ______
                                 
    [Additional submissions of Mr. Braley follow:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                                ------                                

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                ------                                

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                ------                                

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                ------                                

    [Whereupon, at 1:47 p.m., the subcommittee was adjourned.]

                                 <all>

</pre></body></html>
